No. 20-3122
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KENNETH ROSE

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

FILED
Jan 27, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: GILMAN, STRANCH, and NALBANDIAN, Circuit Judges.
Kenneth Rose petitions for rehearing en banc of this court’s order entered on December
7, 2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

A

No. 20-3122
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KENNETH ROSE,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

FILED
Jan 12, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: GILMAN, STRANCH, and NALBANDIAN, Circuit Judges.
Kenneth Rose petitions the court to rehear en banc its order denying him a certificate of
appealability. The petition has been referred to this panel, on which the original deciding judge
does not sit, for an initial determination on the merits of the petition for rehearing. Upon careful
consideration, the panel concludes that the original deciding judge did not misapprehend or
overlook any point of law or fact in issuing the order and, accordingly, declines to rehear the
matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KENNETH ROSE
v.
UNITED STATES OF AMERICA

Case No: 20-3122
SEXIEST FOR REHEARING (with Suggestion for Rehear ing En Banc)

Petitioner, Kenneth Rose, troves for rehearing (with suggestion for Rehearing En Banc) on the denial
of his application for CDA, and denial, of his motions for appointment of counsel, to stay the proceedings
(or extend time to file a more coherent COA application - with or without counsel - due in part to OGWD),
as well as the request to file a merits brief, and to proceed in forma pauperis.
In accordance with Fed R. App. P. (40) and (35), this request is being filed within 14 days (mailbox
rule - see declaration below), and, the attached Memorandum in Support addresses, among other things, how
rehearing (with suggestion for Rehearing, En Banc) is necessary to: (1) Secure or maintain uniformity of
the court's decisions, and/or (2) address the fact that the proceeding involves a question of exceptional
importance.
POSTURE SUMMARIZATION: Petitioner alleging that his Die Process rights were violated because he was
denied the benefit of having a detached and neutral judge adjudicate his 2255 related motions and
proceedings and that the judge found "it difficult to put aside views formed during sorb earlier
proceeding...the central inquiry under 455(a) is the appearance of partiality, not its place or origin."
(liteky, 510 U.S. at 563) and that reasonable jurists could debate that pivotal facts were obfuscated or
simply ignored which would have changed the outcome ?f the proceedings to such a degree to substantiate
Liteky's "rarest circumstances" evidencing the degree of favoritism required when no extrajudicial
source is involved.
Bias manifested in the fact-finding process of 2255 adjudication is obviously a formidable barrier
to a pro se litigate as obfuscation of pivotal facts can denude an otherwise meritorious claim of
ineffective assistance of counsel to frivolity, thereby requiring the pro se indigent litigant to
substantiate why he shouldn't have to manifest hundreds of dollars to obtain appellate review.
Although Petitioner raises the fact that the underlying affidavit for search warrant (Doc# 85) jExb A ]
explicitly averred "evidence of criminal activity will be found at (1X0 Mian Street)..." and that it
was therefore ineffective assistance of counsel to have failed to argue that fact rendered the affidavit
'hare-bones' under Leon (i.e. An affidavit to search 1000 Mian Street is bare-tones to a warrant listing \E#P>[
a completely different address of 7® Elberon). Inexplicably, none of the district court's Qrders/Rulings/
Findings utter the words '1000 Mian Street'? This is a pivotal fact being simply ignored, and/or obfuscated
by the district court because it would disqualify a good-faith finding under Leon and the district court
has demonstrated it will absolutely not have no part in following the law where ever it leads, impartially.
The above instance, is just one of many, where the district court demonstrated parti ility in
adjudicating Petitioner's 2255 claims. Public confidence in the integrity of the judicial system is a
question of exceptional importance and these issues deserve encouragement to proceed further.
This filing was delivered to prison authorities for forwarding to the court, as well as a signed and
dated form DRC 1004 authorizing postage to be deducted from prison inmate account on this
day of
December, 2020.
I declare under penalty of perjury that the foregoing is true and correct. Executes on rz_-zi~'2«=>

fox

Kenneth Rose, 655-t;43
Warren Crroctional Institution

.
. ©f a

bbtsina <mt • pefeifeitesr tsusfe
«WriA
iiaW
2®v,b*q. § mzmm* m satisfy mm rnm&m,. a

petitioner laast daaasnstrate “fefeafe jurists of wmam. omM disagree with fete
district asurfe'a rosoiufeicm of Ms consUtetlonal claims or that jurists amid
conclude fete issues ptesenfete are adequate to deserve enosuragemtet to pteete
Mmrnm,'* MllervSl v. soctarall, 537 0,3. 322# 227 <2003). Sea also Antsy-*»Italia, 464 u.S, 1301, 1302 41p3) (cerMfiteh© required if ©one*. "teteof say
that fete issue .laofes saabstanee’*); Beaten v« GOttlas, 923 F,2d 816, 813 <5th
Cir.), cart*

4i§ U*3* 1128 -(1991) (nm? doubts whether .{a certificate of

probable cause] ,, .should tea issued are fco be «®as3m3 in favor of the petitioner*)..
3ivm that fete M&fe&MMr raised Camtitet&mal violations relating to

urn mi «e* ©I m§§0 -Mite Street® as fete assess. titete ®crlteteL \

i.

activity teU be foute® (PXD 85) mm'ms plaiaiydiffeiranfc &oet-fete tetete :tMnmsfc*# ‘’709 BlbaroKi Avfe,t a^ress-aofemily-soarobai {$!B> 82) and fete i|wn

\
V

of mg faofefiteiags, % reasonable doubt assists- as to whether fete district eourfe
folly ate fairly adjteicatea fete matter** (Federal steteas Gorpas Frastica ate •
Procedure, 4th Si,, Hertz ate Metean, p.1593) teerafor© a CCA should be issued*
Give®, that the Petitioner raised ocnsfeifeufeion violations relating to prosecutorial
tescwteaofe (VSD 9§i«*902), aspects of which amouafete to

*fete-coorfe, ate

fete absence of any facfefiteings, partisularly In light of factualifey of the offers
of proof (FID 969, 991, 992) lasting any -rebuttal by the prosecufeim?

teasgotete

doubt exists, as to- whether fete district court fully ate fairly adjudicated fete
gather® (Federal Habeas Corpus Practic© ate Procedure, 4th Hd,, Herts- ate
p.1393) therefor® a cm stesM be issued, Give©'seasons to doubt that the ^strict
court fully ate'fairly adjudicated fete matters, ifes denials of GD& £Doc» 200) ate
muaft XFP states on appeal (Doc. 201) should be milled in- Petitioners favor*

that Wm original adju&©atites of .tea ggoMbteto rnmm&m aspiitetisrs
^^ asi^a^iiKiaa by tes erronfagiis pramisa teat th® underlying affidavit for .mMI .
mmx& t&m S3)--failed t© specify aay address (which would have been a .mam ■
factual scenario teanthatite cir. case mils,' lit F,3d586, 577-S78, an banc daa,
granting sugptessim) the true factual setting was that tea underlying affidavit
(KB> 65),in fact, averred ”1000 Mian g£@asfe* (FID 85) ms te© address where
"evldane© of criminal activity will be found" (FID 8S>, (which is a factual scenario
squarely analogous to tfes 'Stai- catcait’s.iw^daat' iii dims, 745 F* Supp 2d 773, 587,
affirmed 6th Gir* 2013 where the -address is the underlying affidavit ©lastly mm
different, from ^different address agpaaring on- the warrant, granting succession},
a 0Q& should be issued* ■■•■;■■
Smith v, feinwrlght, 737 F.M 1036, 1037 (11th Gir« 1084} (certificate granted
■ because "district court refused feo hold an evidentiary hearing to develop the
■ truss factual setting ih- ^cfe this claim must fee judged")
UMtsai Habeas GOrpts iFraetio® ahi S^selwe, 4th S&*, Hertz and Liebman,
9*1393) '
Given that the district *siiply ignored' and ’never reached the heart of* the
'©antral question* the plea-i^fective^ssistarrsa-claiiB, which was that ferial
•

'

•:

counsel "indutedmy guilty plea.. J* (3-so«l plea, over 1 count plea) "based cm the
assurarjse,.*muiti-©Gunt sentence would be entirely concurrent«..H (PIQ 723, sworn
unopposed offer of ■ proof) became "his review of the Sentencing guidelines did not
subject the Defendant to a sentencing range including tbs ward 'life*.,,(thus
enabling cm&acufeiv© sentencing)!?l (P3S 994) * Asceptence of tshe 3-caust plea hinged,
on counsel erroneous assurance the sentence wM te fully concurrent, which if true,
would have resulted in the PSR's 17 fear sentences- therefore a GOA should b@ issued.
Given that tee district court didn't address ®cna of Petitioner's central
cmfeeafcions* of the fran^-ineffe^te-^sisfeancs-olaiiiR, .which.was teat "Had trial
counsel proparly developsel tee trial court recced with (Doe. 134)*,.the. results of
the suppression hearings would have clearly and plainly been favorable to granting
suppression.-,*31 (fid 995) if prepared/psesentedi at trial,, thus, a OQA should issueas the court never denied it would have granted suppression, or a franks tearing, had ,(Dpc<18i^ teenr , r
,

.

"

•X'f' l c(

presented to the trial court at the original proceedings

A

V''-•

'“'

, ■ (~ w- \ ■£>

MATERIAL FACTS RAISED IN 2255 PROCEEDINGS DEMONSTRATE RELIEF WARRANTED AS A MATTER OF LAW
Cline v. City of Mansfield, 745 F. Supp. 2d 773, Affirmed, 2012 FED App. 913N (6th Cir 2012)
*804-*805 Applicable Law...
See [**661 United States v. Johnson, 558 F. Supp. 2d 807, 812 (E.D. Tenn. 2008) ("The Supreme Court and the
Sixth Circuit have recognized that despite best efforts, inaccurate information, such as a wrong address, may get
into the affidavits for search warrants...." (citing United States v. Pelavo-Landero. 285 F.3d 491 (6th Cir.
2002)). This principle, however, does not apply to major discrepancies. See Knott v. Sullivan. 418 F.3d 561, 569
(6th Cir. 2005) ("[l]n this case, the errors in the search warrant and affidavit were so extensive that there was a
reasonable probability that the wrong vehicle could have been mistakenly searched.").
*805-*806 Depravation of a Constitutional Right...
Since the factual allegations in the affidavit listed above appear to [**681 refer exclusively to 618 Burns Street
and the affidavit on its face contains no information relating to 347 South Main, the court agrees with Plaintiffs
that the affidavit does not show that there was probable cause to conduct a search of 347 South Main... .
Defendants do not allege, and it does not appear to the court, that an exception to the warrant requirement
applies in this case. Accordingly, the search in this case violated Plaintiffs' Fourth Amendment right to be free
from unreasonable searches and seizures.
*807-*808 Analysis...
In determining whether a police officer's reliance on the warrant was objectively reasonable, the court must
decide "whether a reasonably well-trained officer would have known that the search was illegal despite the
magistrate's authorization." United States v. Weaver, 99 F.3d 1372,1380 (6th Cir. 1996). This case presents a
different scenario from Laughton, Frazier, and the cases cited therein. In those cases, the facts contained within
the affidavit tended to reflect that there was probable cause to search the place listed in the warrant but fell
short of actually establishing probable cause. The issue in those cases was the sufficiency of the facts asserted in
the affidavit and whether a reasonable officer would have known whether those facts in fact did not establish
probable cause. In this case, by contrast, [**741 it is clear that any reasonable officer who: (a) read the
affidavit, and (b) happened to discover that it referred exclusively to 618 Burns Street would know that the
affidavit did not reflect probable cause to search 347 South Main.
MATERIAL FACTS MAY NOT BE IGNORED TO DENY DEFENDANT FOR THE PURPOSE OF APPLYING LEGAL PRINCIPLE
FAVORABLE TO GOVERNMENT
United States v. Brown, 819 F.3d 800 (6th Cir. 2016)
The dissent would have us ignore the facts of this case in order to apply Sherer regardless of its
appropriateness. However, [HN17] each of our decisions "must necessarily be based upon application of
relevant law to the unique facts before the [Cjourt." Local 120, Int'l Molders & Allied Workers Union, AFL-CIO v.
Brooks Foundry, Inc., 892 F.2d 1283,1289 (6th Cir. 1990): see also United States v. Cunningham, 679 F.3d 355.
375 (6th Cir. 2012) (" [l]n every case[,] application of a legal principle turns on the presence of particular facts.")
(citation and quotation marks omitted). In other words, we are charged with "considering not only how wellestablished is the general legal principle involved but also how precisely the facts coincide with the cases
applying that principle." United States v. Savoca, 761 F.2d 292, 298 n.10 (6th Cir. 1985). In the instant appeal,
the only cases propounding the principle enunciated in Sherer, including Sherer itself, are distinguishable on the
facts. Thus, Sherer's holding carries little force to the extent that it fails to account for the unique [**691 facts
before us.

£
S'-

APPOINTMENT OF COUNSEL
A reasonable jurist would understand the importance of assistance of counsel, particularly at the stage where a
COA application to the district court is fashioned (see Doc. 194), based on publications such as the American Bar
Association's 2009 book: A Guide to Section 2255 Motions (ISBN 978-1-60442-268-9, Beremann. pg. 219) which
informs that "A COA application should make a 'substantial showing of the denial of a constitutional right" as to each
issue for which a COA is requested. Without guidance from counsel, the district court may overlook issues on which
an appeal is warranted."
A reasonable jurist would understand why the United States Supreme Court opined about the importance of
assistance of counsel when it said: 1) 'Constitutional and other claims Will be articulated more ably and presented
more thoroughly by counsel'. McFarland v. Scott. 512 U.S. 849. 855-56 (1994), and 2) "[Tjhe right to be heard [will]
be of little avail if it d[oes] not comprehend the right to be heard by counsel". Powell v. Alabama. 287 U.S. 45, 68-69
(1932). A reasonable jurist would find that based on caselaw like this, and considered in concert with Movant's pleas
to the court for appointment of counsel, which among other things, claimed Movant suffered impairments resulting
from OCD (Doc. 194 & 130) and "Movant lacks the expertise to present and demonstrate the needs, and issues to be
presented, to show the need for an evidentiary hearing...Counsel is necessary to properly articulate and amend the
legal issues presented..." (Doc. 125, PagelD: 669), that the district should have appointed counsel and this issue
deserves encouragement to proceed as a reasonable jurist could reach a different outcome th@n that of the judge.
A reasonable jurist would understand that a Movant's submissions In 2255 proceedings should demonstrate a
prima facie showing (or self-evident showing) of facts constituting constitutional violations that if proven at an
evidentiary hearing would entitle Movant to relief. Proof is not required before the evidentiary hearing: "If the
[movant's] allegations are not affirmatively contradicted by the record and the claims are not patently frivolous, the
district court is required to hold an evidentiary hearing. It is in such a hearing that the [movant] must offer proof',
Aron. 219 F.3d at 715 n.6.
Among other things> the Movant alleged he received ineffective assistance of counsel during plea deal
negotiations when counsel made representations that either one of the two simultaneously offered plea deals (1cpunt or 3-count) would result in the same total time of incarceration (fully concurrent with the state and not
exceeding the state sentence) via counsel's erroneous appraisal that the 3-count sentence 'would' be concurrent as
instructed by the 2004 Sentencing Guidelines (as opposed to 'could' be concurrent with newer Sentencing
Guidelines). Reasonable jurists could find that at minimum an evidentiary hearing was warranted on this claim.
Reasonable jurists could find that the district court was wrong to deny appointment of counsel where Movant
sufficiently sketched out this.claim and appointment of counsel would have made this claim clearer to the court,
and/or counsel would have been able to more clearly demonstrate the need for an evidentiary hearing on this or
other claims because the fact that the court stated generally, at the plea change hearing, that it 'could' sentence
multiple counts consecutively was not the beginning and end of adjudication of this claim of plea-deal-ineffectiveassistance as clarified by the following example: had, for instance, the total guideline points equaled, say 35, as a
first-offender with no priors under the 2004 guidelines, the guidelines would have directed the sentencing court to use
concurrent sentencing on the multiple counts of this case. This claim was clearly not adjudicated under the 'strongest
argument suggested' as guided by Kerner and a reasonable jurist could have found that counsel should have been
appointed in the furtherance of this claim (or an evidentiary hearing held) and/or its present adjudication creates an
appearance of bias under Bias-Evincers 1 through 6 (see above Bias-Evincer sections)
Among other things, the Movant alleged he received ineffective assistance when his appellate counsel erroneously
stated in appellate proceedings that the 709-Elberon-address-actualiy-searched (as opposed to the "1000 Mian St.",
PagelD# 85, location of evidence averred in the underlying affidavit for search warrant) was listed in the underlying
affidavit. This wasjriearly deficient performance because '709 Elberon' NEVER appears in the underlying affidavit.

CERTIFICATION OF SERVICE

, (2
was delivered to prison authorities for forwarding to the court, as well as a
■ggesn exn - f-e^-g/n^Qv'.ec.Y'
This filing __________________________________________________

■

r

signed and dated form DRC 1004 authorizing postage to be deducted from
prison inmate account on this
day of Dgce>*fc>g^..... / 20 zp.
Appellate, Kenneth Rose, further certifies that a copy of this filing was mailed
on the same date and manner above to Christy Muncy, Assistant United States
Attorney, at 221 East Fourth Street, Suite 400, Cincinnati, OH 45202.
I declare (or certify, verify, or state) under penalty of perjury that the
foregoing is true and correct.
Executed on •

Kenneth Rose, #655-843
Warren Correctional Inst.
5787 State Route 63
P.O. Box 120
Lebanon, OH 45036

?

I
?

Case: l:09-cr-00047-MRB Doc #: 44-1 Filed: 05/21/10 Page: 4 of 7 PAGEID #: 85

I

STATU OF OHIO
•SS:
HAMILTON COUNTY

1
i
i
I
%
I
I
l.

i'.'G

I

.OVFFffiAVJffFOR SEARCH WARRANT
Police Officer.Chris Schroder, being first duly cautioned and sworn, deposes and says
that there are items within the jurisdiction of the Hamilton County Court of Common
Pleas at: -if##Afis^SireifCmcianats, HAMILTON COUNTY, OHIO, 45202 •
and that based upon the attached affidavit and the investigation 1 have conducted, I have
probable cause to believe that evidence oferiminai activity will be found at the above
listed places and the following items contained therein are requested to he searched
and/or seized:
i

i.) Co.mputprs-defmed as central processing units, computer motherboards, har'd drives,
floppy drives, removable and re-write able media, tape and digital drives, internal and
external storage devices, video display units or receiving devices, scanners, printers,
modems, any and aj] connecting cables and devices, input devices such as “web
cams” video cameras, audio recording devices, disc’s both audio, video and digital,
any memory devices such as smart media, memory sticks, or any other form of
memory or device utilized by the computer or it’s devices. Any computer software,
programs and source documentation, computer logs. (This description constitutes the
definition of a computer system as that term may be used throughout this document.)
And all computer related accessories not specifically mentioned herein, all equipment
having been used in violation of 2907-02, Ohio Revised Code.

I

i
s

t

2) Any documentation and/or notations referring to the computer, the contents of die
computer, the use. of the computer or any computer software and/or communications.
All information within the above listed items including but not limited to machine
readable data, all previously erased data, and any persona] communications including
but not limited to e-mail, chat capture, capture files, correspondence-stored in
. electronic form, and/or correspondence exchanged in electronic form as indicative of
use in obtaining, maintenance, and/or evidence of said offense.

l\

*.» Any financial t scorns, or leceipis kept as a pan of anu-'or indicative of the obtaining
maintenance, anti/oi evidence of said offense; financial and licensing information
with respect to site compute! software and hardware.

A) All of the above records, whether stored cm paper, on magnetic media such as tape,
cassette, cartridge, disk, diskette or on memory storage devices such as optical disks,
programmable instruments such as telephones, ''electronic address books”, personal
digital assistants, smart media, memory cards, memory sticks, calculators or any

A
ROSE 044

i

Case: l:09-cr-00047-MRB Doc #: 44-1 Fried: 05/21/10 Page: 1 of 7 PAGEID #: 82

I5

3

I

i

I

f

r

"S&
f

COURT OF COMMON FLEAS
Hamilton county ohio
CRIMINAL DIVISION
IN THE MATTER OF THE
AFFIDAVIT FOR SEARCH WARRANT
RE: THE INVESTIGATION OF

HO.

/

Keaneth Rose
Qnciaaati,
HAMILTON COUNTY, OHIO 45205

I
I
f

search:warrant!

I
To the Police chief ofi_.iacia.natj, greetings. Whereas an affidavit fora search warrant
having been made under oath by Police Officer Chris Schroder, a peace officer of the
Cinema ad Police, of the State of Ohio the Court finds,
I. There is probable cause to believe that Keaseth Rose, and ethers yet known,
have committed and are committing offenses in violation of the Ohio Revised
Code Section 2907,02.
2. There is probable cause to believe that evidence pertaining to the aforementioned
.offenses will be obtained through the search and seizure of computers, computer
data and other electronic data in storage as well as other items detailed below.

i

3. In particular the evidence seized will reveal the details of the involvement of the
participants, identities of victims, evidence of the alleged violations, records of
the alleged transactions or transmissions, and places that criminal activity
occurred as well as other information concerning the ongoing criminal
conspiracy, the object of which is stated above.

Said affidavit is attached hereto and incorporated herein, and these are, therefore-, to
command you in the name of the State of Ohio, with die necessary and proper assistance,
to enter, in the daytime into the residence located at: 709 Elberon Avenue apartment '
number one, Cincinnati, Hamilton County, Ohio 45205. Further described as a two story,
multi unit building, reddish brick construction, with nine windows facing Elberon
Avenue. The building has a white two story awning covering the red front door. The
front door has twelve individual windows. The building does not have the street address:
however I have included a printout from the Hamilton County Auditors identifying the

I (z.y(=> & I
ROSE. 041

(2 of 6)

No. 20-3122

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KENNETH ROSE,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Dec 07, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, Circuit Judge.
Kenneth Rose, an Ohio prisoner proceeding pro se, appeals an order of the district court
denying his Federal Rule of Civil Procedure 60(b) motion for relief from judgment, motion for
appointment of counsel, and motion for disqualification of the district court judge. Rose’s
Rule 60(b) motion arose out of the district court’s denial of his 28 U.S.C. § 2255 motion to vacate,
set aside, or correct sentence. This court construes Rose’s timely notice of appeal as an application
for a certificate of appealability (COA). See Fed. R. App. 22(b)(2). Rose has filed a motion for
appointment of counsel and to stay the proceedings, a motion for appointment of counsel and to
file a merits brief, and a motion to proceed in forma pauperis.
Rose pleaded guilty to three counts of production of child pornography in violation of
18 U.S.C. § 2251. The trial court sentenced Rose to a total of 612 months of imprisonment to be
followed by a life term of supervised release. On appeal, Rose challenged the district court’s
rulings on his motion to suppress, motion for a suppression hearing, and motion to dismiss. This
court affirmed, and the Supreme Court denied Rose’s petition for a writ of certiorari. United States
v. Rose, 714 F.3d 362, 364 (6th Cir.), cert, denied, 571 U.S. 910 (2013). Rose is currently confined
in state prison on related state convictions.

(3 of 6)
No. 20-3122
-2In his § 2255 motion, Rose raised the following grounds for relief: (1) the district court
improperly denied his motion to suppress; (2) the district court abused its discretion by refusing to
reopen the suppression hearing when presented with new evidence; (3) the district court erred in
denying his motion to dismiss the superseding indictment because all his activities were intrastate;
and (4) trial and appellate counsel provided ineffective assistance. The district court denied Rose’s
motion, finding that claims one through three were previously raised on direct appeal and rejected
by this court and that Rose’s ineffective-assistance claims lacked merit. This court denied Rose’s
application for a COA. Rose v. United States, No. 18-4109 (6th Cir. July 10, 2019) (order). Rose
filed a petition for panel rehearing, which this court denied. Id. (Sept. 16,2019) (order).
While his rehearing petition was pending in this court, Rose filed a Federal Rule of Civil
Procedure 60(b) motion in the district court, raising the following arguments: (1) the ruling on his
§ 2255 motion was premature because “the 6th Circuit oral arguments had not yet been reviewed”;
(2) “[t]he affidavit... from the librarian at [his] place of confinementQ provided a sworn statement
regarding the technical difficulties related to [his] ability to review oral arguments on CD’s”;
(3) the district court’s rulings were based on “inadequate fact[ ]findings”; (4) the district court’s
rulings were based on “overlooked critical material facts”; (5) the district court’s rulings were
based on “overlooked contentions”; (6) the district court failed to consider his claims of
prosecutorial misconduct and “fraud upon the court”; and (7) the district court’s rulings never
referenced the address ‘“1000 Mian [sic] Street’ as the location of‘evidence of criminal activity,”’
evincing an inadequate consideration of his claims. Rose also filed a motion for appointment of
counsel and a motion for disqualification of the district court judge.
In a single order, the district court denied Rose’s Rule 60(b) motion, his motion for
appointment of counsel, and his motion for disqualification. Finding that the first two arguments
Rose raised in his Rule 60(b) motion did not add new grounds for relief or address the merits of
his § 2255 claims, the district court considered the arguments under Rule 60(b) and concluded that
they did not warrant relief. See Gonzalez v. Crosby, 545 U.S. 524, 532 (2005). With respect to
Rose’s remaining arguments, the district court found that they sought to either relitigate the merits

(4 of 6)
No. 20-3122
-3of his § 2255 motion or add new claims for relief and therefore transferred them to this court for
consideration of whether to authorize the filing of a second or successive § 2255 motion. See
Gonzalez, 545 U.S. at 532; see also In re Sims, 111 F.3d 45, 47 (6th Cir. 1997) (per curiam). The
transferred claims were docketed as a motion for an order authorizing the district court to consider
a second or successive § 2255 motion in case number 19-4137. In an order entered on May 11,
2020, this court found that the transfer of claims three through seven to this court for consideration
of whether to authorize a second or successive § 2255 motion was proper and denied authorization.
In re Rose, No. 19-4137 (6th Cir. May 11, 2020) (order).
Rose now appeals the district court’s denial of Rule 60(b) relief. A prisoner seeking to
appeal the denial of a Rule 60(b) motion in a habeas corpus proceeding must first obtain a COA.
Johnson v. Bell, 605 F.3d 333, 336 (6th Cir. 2010). A COA may be issued “only if the applicant
has made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
“A petitioner satisfies this standard by demonstrating that jurists of reason could disagree with the
district court’s resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Rule 60(b) provides as follows:
On motion and just terms, the court may relieve a party or its legal representative
from a final judgment, order, or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial under Rule 59(b);
(3) fraud ... misrepresentation, or misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released or discharged; it is based on an
earlier judgment that has been reversed or vacated; or applying it
prospectively is no longer equitable; or
(6) any other reason that justifies relief.

(5 of 6)
No. 20-3122
-4Fed. R. Civ. P. 60(b). Rose brought his motion under subsection (6). A district court’s discretion
to grant or deny relief under Rule 60(b)(6) is especially broad. McDowell v. Dynamics Corp. of
Am., 931 F.2d 380, 383 (6th Cir. 1991). “Rule 60(b)(6) provides relief‘only in exceptional and
extraordinary circumstances,’ which are defined as those ‘unusual and extreme situations where
principles of equity mandate relief.’” Export-Import Bank ofU.S. v. Advanced Polymer Sciences,
Inc., 604 F.3d 242, 247 (6th Cir. 2010) (quoting Jinks v. AlliedSignal, Inc., 250 F.3d 381, 387 (6th
Cir. 2001)).
As his first ground for relief under Rule 60(b) Rose argued that the district court’s ruling
notified the court that oral arguments from this court had not yet been reviewed due to “technical
issues at [his] place of confinement.” And in his second ground for relief, Rose asserted that the
affidavit from the facility librarian that he submitted before the ruling on his § 2255 motion
documented these technical issues. The district court concluded that these arguments did not
warrant relief under Rule 60(b)(6), explaining that Rose failed to “connect” why access to
unspecified oral arguments justified relief from the denial of his § 2255 motion. Reasonable jurists
would agree that an alleged lack of access to oral argument transcripts does not rise to the level of
an extraordinary circumstance that would warrant relief from the judgment.
To the extent Rose seeks to appeal the denial of his motion for appointment of counsel and
motion for disqualification, no COA is warranted. The district court explained that Rose’s
affidavit supporting his motion for disqualification under 28 U.S.C. § 144 was insufficient because
it set forth only legal disagreements with the court’s prior rulings in his case and did not provide
any basis for finding that the district court judge held a bias that arose out of his personal
background and association. See United States v. Story, 716 F.2d 1088, 1090 (6th Cir. 1983). And
to the extent Rose sought disqualification under 28 U.S.C. § 455, the court explained that nothing
in Rose’s motion presented an adequate reason for disqualification. Indeed, his motion expressed
nothing more than his disagreement with the court’s denial of his motion to suppress, which does
not constitute a basis for disqualification. See Liteky v. United States, 510 U.S. 540, 554 (1994).

(6 of 6)
No. 20-3122
-5 Reasonable jurists could not disagree with the district court’s denial of Rose’s motion for
disqualification.
Jurists of reason also could not disagree with the district court’s denial of Rose’s motion
for the appointment of counsel. Defendants do not possess a right to appointed counsel “when
mounting collateral attacks upon their convictions.” Pennsylvania v. Finley, 481 U.S. 551, 555
(1987). District courts are permitted to appoint counsel for financially eligible persons seeking
relief under § 2255 when “the interests of justice so require.” 18 U.S.C. § 3006A(a)(2). When
evaluating whether appointment of counsel is warranted, courts generally examine the nature of
the case, the movant’s ability to prosecute the case in a pro se capacity, and the “complexity of the
factual and legal issues involved.” Lavado v. Keohane, 992 F.2d 601, 606 (6th Cir. 1993). The
district court considered these factors and the arguments put forth by Rose in his motion.
Reasonable jurists would not debate the district court’s conclusion that the interests of justice did
not require appointment of counsel to prosecute Rose’s attempt to reargue his § 2255 claims.
Accordingly, Rose’s application for a COA is DENIED. His motions for appointment of
counsel, to stay the proceedings, to file a merits brief, and to proceed in forma pauperis are
DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

•sf

o

UNTIED STATES COURT OF APPEALS
FOR THE SIXTH CTRCUTT
KENNETH RC6E
V.

UNTIED STATES OF AMERICA

REzs-r:nfm
OCT 0 5 2020

DEBORAH S. HUNT
k.

Case No.: 20-3122

i

i\ri A

MOITON FOR LEAVE TO FEE MERITS BRIEF

Appelant-, Kenneth Rose, requests leave to file merit s brief demonstrating issues deserve
encouragement to proceed. Appellant prays that the court will appoint counsel to assist in
fashioning of a merits brief or otherwise permit Appellant 180 days to submit such brief in
light of OOVID-19 related issues, such as temporary closure of institution's law library
where Appellant's legal dociments are saved.
Appellant hereby incorporated by reference the filings in case no .: 19-4137 and S03IUS
filings under
no.: 19-7173 - noting the substance of the allegations were never
contested by the prosecution thereby effectively conceding that United States Supreme Court
precedent was not applied to all of the critical material facts necessary for proper
assessment under Leon's third scenario in which good-faith will not be granted. The trial
judges failure to address this claims in the original 2255 proceedings is material to the
adjudication of judicial bias claims. See Doo 130, 1:09-CR-047. 1:09-CR-047 filings are
hereby incorporated by reference.
Attached Memorandum in Support is not fully completed due to OOVID-19 closing access
to law library word processor access but Appellant pray the court will see the merit in
permitting the claims to be more fully developed (hopefully with the assistance of ^
appointed counsel) as a prim facie case has been made undermining the trial court s
appearance of fairness in the proceedings before it.
Appellant declares under the penalty of perjury that this motion was delivered to
prison authorities for forwarding to the court on this 3oit'> day of 5>e.pT. 2020.
(Mailbox Rule)
Kenneth Rose, 655-843
Warren Correctional Inst.
5787 State Route 63
Lebanon, CH 45036
CERIIFLCATE OF SERVICE
I, Kenneth Rose, further declare that a copy of this filing was mailed on the same date
and nanner above to Christy Muncy, Assistant United States Attorney, at 221 East Fourth Street
Suite 400, Cincinnati, Ohio 45202.
Kenneth Rose

I

I

■'t

o

MEMORANDUM IN SUPPORT

CM

I
|

INITIAL MATTER
Reasonable jurists would comprehend that judicial bias inherently undermines the integrity of the
proceedings and appearance of fairness (See Litekv. 510 U.S. at 565 noting the importance of "preserving both the
appearance and reality of fairness). Reasonable jurists would understand that there are circumstances, although rare,
where the judge has demonstrated sufficient appearance of bias (See Litekv. 510 U.S. at 555 'only in the rarest
circumstances evidence the degree of favoritism or antagonism required'). If judicial bias is found to be substantiated
in this case it could undermine all of the pre-sentence and post-sentence adjudications, particularly in this matter
where the same judge: 1) self-adjudicated claims of bias (disqualification motion, Doc. 195), 2) denied appointment
of counsel which would have assisted.with the preparing a formal COA application to demonstrate how reasonable
jurists would have reached different results than those reached by the judge (appointment of counsel motion, Doc.
194), and denying the 60(b) motion for 2255 relief based on, among other claims, that: had the judge not overlooked
critical material facts and/or assertions, the outcome would have been favorable to the Movant (motion for relief
60(b), Doc. 206), therefore, it makes sense to start with sketching out what a reasonable jurist might perceive as
constituting the 'appearance of bias' (See Factors Evincing 'Rare Circumstance' Indications of Judicial Bias, below).

BIAS-EVINCERS: TACTICS EVINCING 'RARE CIRCUMSTANCE' INDICATIONS OF JUDICAL BIAS
A reasonable jurist could find that judicial-bias-substantiations encompass the fact that a biased adjudicator,
having predetermined to deny any substantial relief and/or having a motivation to fashion hurdles for any potential
future reversal of his predetermined-denia!s-of-relief, would employ any combination of the following tactics (and
therefore the denial of the disqualification motion is deserving of encouragement to proceed):
1) Judge weakly interprets a prisoner's assertions and/or cherry-picks underlying facts to effectuate a premeditateddenial-of-relief (see also number 2, below);
2) Judge interprets prisoner's assertions/facts in such a way that is inconsistent with Haines v. Kerner, 4Q4-U.-S....5.19,
520-21 (holding that Pro Se pleadings are to be liberally construed and interpreted to raise the strongest argument
they suggest);
3) Judge partially quotes prisoner's assertions (and/or underlying facts) truncating critical parts to effectuate a
predetermined-denial-of-relief;
4) Judge averts any mention (on the record) of prisoner's outcome-changing-underlying-facts (and/or self-evidentoutcome-changing-underlying facts) in order to effectuate a premeditated-denial-of-relief,
5) Judge denies appointment of counsel to impede any refinement/reframing/re-posturing of prisoner's
constitutional claims via counsel's assistance to address any ambiguity/vulnerability of otherwise-meritorious-claims;
6) Judge treats the movant's- judicially-weakened-claims as frivolous to impede potential appellate review by
effectively denying pauper status which then would require indigent prisoner to pay filing fee he likely doesn t have,
7) Judge purports to quote the overred-street-address-location-of-evidence from a search-warrant's-underlyingaffidavit when in fact the address quoted by the court exists only on the warrant's face page (this occurring despite
Movant's protestations that the warrant's-address-to-be-searched is belied by the underlying affidavit s 1000 Mian
St.'-averred-location-where-evidence-would-be-found (PagelD#1009, FN1, as compared to actual underlying
affidavit: PagelD#85)
A reasonable jurist could find that the above tactics could constitute an appearance-of-bias and that they appear
to have been employed by the district court judge in the instant case and therefore the Judicial-bias issues deserves
encouragement to proceed. See throughout this document where the above tactics appear to have been used.

S

■sfCO

APPOINTMENT OF COUNSEL
A reasonable jurist would understand the importance of assistance of counsel, particularly at the stage where a
COA application to the district court is fashioned (see Doc. 194), based on publications such as the American Bar
Association's 2009 book: A Guide to Section 2255 Motions (ISBN 978-1-60442-268-9. Bergmann, pg. 219) which
informs that "A COA application should make a 'substantial showing of the denial of a constitutional right as to each
issue for which a COA is requested. Without guidance from counsel, the district court may overlook issues on which
an appeal is warranted."
A reasonable jurist would understand why the United States Supreme Court opined about the importance of
assistance of counsel when it said: 1) 'Constitutional and other claims will be articutated more ably and presented
more thoroughly by counsel', McFarland v. Scott. 512 U.S. 849,855-56 (1994), and 2) "[Tjhe right to be heard [will]
be of little avail if it d[oes] not comprehend the right to be heard by counsel.", Powell v. Alabama, 287 U.S. 45, 68:69
(1932), A reasonable jurist would find that based on caselaw like this, and considered in concert with Movant's pleas
to the court for appointment of counsel, which among other things, claimed Movant suffered impairments resulting
from OCD (Doc. 194 & 130) and "Movant lacks the expertise to present and demonstrate the needs, and issues to be
presented, to show the need for an evidentiary hearing...Counsel is necessary to properly articulate and amend the
legal issues presented..." (Doc. 125, PagelD: 669), that the district should have appointed counsel and this issue
deserves encouragement to proceed as a reasonable jurist could reach a different outcome than that of the judge.
A reasonable jurist would understand that a Movant's submissions in 2255 proceedings should demonstrate a
prima facie showing (or self-evident showing) of facts constituting constitutional violations that if proven at an
evidentiary hearing would entitle Movant to relief. Proof is not required before the evidentiary hearing: "If the
[movant's] allegations are not affirmatively contradicted by the record and the claims are not patently frivolous, the
district court is required to hold an evidentiary hearing. It is in such a hearing that the [movant] must offer proof,
Aron, 219 F.3d at 715 n.6.
Among other things, the Movant alleged he received ineffective assistance of counsel during plea deal
negotiations when counsel made representations that either one of the two simultaneously offered plea deals (1count or 3-count) would result in the same total time of incarceration (fully concurrent with the state and not
exceeding the state sentence) via counsel's erroneous appraisal that the 3-count sentence 'would' be concurrent as
instructed by the 2004 Sentencing Guidelines (as opposed to 'could' be concurrent with newer Sentencing
Guidelines). Reasonable jurists could find that at minimum an evidentiary hearing was warranted on this claim.
Reasonable jurists could find that the district court was wrong to deny appointment of counsel where Movant
sufficiently sketched out this claim and appointment of counsel would have made this claim clearer to the court,
and/or counsel would have been able to more clearly demonstrate the need for an evidentiary hearing on this or
other claims because the fact that the court stated generally, at the plea change hearing, that it 'could' sentence
multiple counts consecutively was not the beginning and end of adjudication of this claim of plea-deal-ineffectiveassistance as clarified by the following example: had, for instance, the total guideline points equaled, say 35, as a
first-offender with no priors under the 2004 guidelines, the guidelines would have directed the sentencing court to use
concurrent sentencing on the multiple counts of this case. This claim was clearly not adjudicated under the strongest
argument suggested' as guided by Kerner and a reasonable jurist could have found that counsel should have been
appointed in the furtherance of this claim (or an evidentiary hearing held) and/or its present adjudication creates an
appearance of bias under Bias-Evincers 1 through 6 (see above Bias-Evincer sections)
Among other things, the Movant alleged he received ineffective assistance when his appellate counsel erroneously
stated in appellate proceedings that the 709-Elberon-address-actually-searched (as opposed to the "1000 Mian St.",
PagelD# 85, location of evidence averred in the underlying affidavit for search warrant) was listed in the underlying
affidavit. This was clearly deficient performance because '709 Elberon' NEVER appears in the underlying affidavit.

ors-'-j-c
-

o .

i

rasgasaas f

wCe ,
£>. a, Gc* .«<>•» .
CiY Vn>30-

-$8
ua.toa

^mim

^ tjCOoWW »#fK: 3? OT2C'

^T«s

j

f

«.p n<=P^.iS

f-'to it- T^v<fc ■v-S^jfcTS'K C/V~^i^ I-

'oo

iSS

e; ST*»

SrTe.«iT,

of/

<x-l SYo

V2-2.“i

V

.•V

%

f-“;!K.

\
M-'

f.

■

-

i-

r

I
i\

,-i

f

s

I[

*

I
t}
S*

;

*

;•
l
♦

I-s

I
I
f

l

.*■

I

<

t

Case: l:09-cr-00047-MRB Doc #: 209 Filed: 01/09/20 Page: 1 of 3 PAGEID #: 1111

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
CRIMINAL CASE NO. 1:09-cr-047
CIVIL CASE NO. 1:14-cv-809

UNITED STATES OF AMERICA
Plaintiff,

Judge Michael R. Barrett

v.
KENNETH ROSE,
Defendant.
ORDER
Before the Court are Defendant’s Motion to Alter or Amend Judgment (Doc. 208
PAGEID 1104-06) and accompanying Motion for Amended or Additional Findings of Fact
and Law (Id. at PAGEID 1107-09).1 Defendant seeks to alter or amend the Order of this
Court entered on November 21, 2019 (Doc. 207), which denied his motions for
appointment of counsel, to disqualify, and for relief under Federal Rule of Civil Procedure
60(b) (Docs. 194,195, 206). In that Order, the Court transferred several of the Rule 60(b)
claims, including those regarding “inadequate factfindings” and “overlooked contentions,”
to the Sixth Circuit for authorization as a second or successive petition under § 2255(h).
(Doc. 207, PAGEID 1098, 1103).
Though he purports to challenge the Court’s November 21, 2019 Order,
Defendant’s arguments focus on the Court’s September 6, 2018 Order denying § 2255
relief (Doc. 191). (See Doc. 208, PAGEID 1105 at

4-7, PAGEID 1108 at

4-7

1 The motions are each accompanied by identical, seven-paragraph “ENUMERATED LIST OF
PROPOSED ADDITIONAL FINDINGS[.]“ (Id. at PAGEID 1105, 1108).

1

Case: l:09-cr-00047-MRB Doc #: 209 Filed: 01/09/20 Page: 2 of 3 PAGEID #: 1112

(specifically referencing perceived errors in the § 2255 Order)).2 The deadline for moving
to alter or amend that judgment has long since passed. Fed. R. Civ. P. 59(e) (Such a
motion “must be filed no later than 28 days after the entry of the judgment.”).

Even

assuming the relief requested timely targets the Court’s most recent Order (Doc. 207),
Rule 59(e) permits altering or amending only in the event of: “1) a clear error of law; (2)
newly discovered evidence; (3) an intervening change in controlling law; or (4) a need to
prevent manifest injustice.” Intera Corp. v. Henderson, 428 F.3d 605, 620 (6th Cir. 2005)
(citation omitted).

Such a motion “cannot be used to ‘relitigate old matters’” or to

resuscitate rejected arguments. J.B.F. by and through Stivers v. Ky. Dep’t. ofEduc., 690
F. App’x 906, 907 (6th Cir. 2017).
Defendant offers an “ENUMERATED LIST OF PROPOSED ADDITIONAL
FINDINGS” as support for both his Rule 59(e) motion as well as his Motion for Amended
or Additional Findings of Fact and Law (see Doc. 208, PAGEID 1105, 1108). These
proposed additional findings concern the adequacy of the search warrant given its
reference at one point to “1000 Mian (sic) Street,” whether trial counsel was ineffective
for failing to properly advise as to consecutive sentences, and whether additional
affidavits of Defendant or case citations would have altered the suppression decision in
his case. They repeat arguments made in connection with Defendant’s 60(b) motion (see,

2 In the first three “proposed additional findings,” paragraphs 1-3 in support of his motions,
Defendant echoes the complaints made in his Rule 60(b) motion. He charges that “a material fact” has
been “overlooked!,]” that prosecutors effectively obfuscated this fact, and that it was plain error for the Court
to have “never made any factfindings whatsoever!.]” (Doc. 208, PAGEID 1105 at HI] 1-3, PAGEID 1108 at
HI! 1-3). The “fact” referred to in each of these allegations is that the affidavit for search warrant referenced
the address of the Hamilton County Court of Common Pleas: 1000 Main Street. (See Doc. 44-1, PAGEID
85). The fact that the Court did not explicitly reference “1000 Mian (sic) Street” in its prior Orders does not
mean that Defendant’s related argument was not considered. The Court explicitly referenced Defendant’s
filings (e.g., Doc. 190) that raised his concerns over the inclusion of this address in its prior Orders. (See,
e.g., Doc. 191 at PAGEID 997, Doc. 207 at PAGEID 1098).
2

Case: l:09-cr-00047-MRB Doc #: 209 Filed: 01/09/20 Page: 3 of 3 PAG El D #: 1113

eg., Doc. 206, PAGEID 1089)—arguments that the Court has already considered and
determined warrant prior authorization as a second or successive petition because they
challenge the Court’s prior merits determinations related to his § 2255 motion. (See Doc.
207, PAGEID 1096-97, 1100-01). Defendant’s disagreements with the outcome of his
trial and his § 2255 motion, however creatively characterized, do not raise the types or
error or injustice contemplated by either Federal Rule of Civil Procedure 60(b) or 59(e).
Defendant also makes a short statement regarding the portion of the Court’s
November 19, 2019 Order that denied his motion to disqualify. In an effort to correct an
omission noted by the Court, Defendant certifies, under penalty of perjury, that the motion
“was/is made in good faith.” (Doc. 208, PAGEID 1104). The Court’s decision on the
motion to disqualify, however, turned on the inadequacy of the affidavit in support and not
on the lack of such a certification. (See Doc. 207, PAGEID 1093-95).
In sum, “re-hash[ing] old arguments,” short of demonstrating any of the scenarios
enumerated in Henderson, cannot justify the relief sought. Wren v. United States, No.
17-2054, 2018 WL 4278569, at *3 (6th Cir. Sept. 6, 2018) (quoting Gulley v. Cnty. of
Oakland, 496 F. App’x 603, 612 (6th Cir. 2012)).

Defendant’s Rule 59(e) motion is

accordingly DENIED (Doc. 208). The Court likewise finds no basis to grant his Motion for
Amended or Additional Findings of Fact and Law (Id.)] it is also DENIED.
IT IS SO ORDERED.
s/ Michael R. Barrett_____
Michael R. Barrett, Judge
United States District Court

3

Oases 1:Q9-cr-00047-MRB Doe §t 208

PAGF3D #:1108

enumerated list of proposed additional findings

1, The district court has not uttered the words "1000 Mian Street" in an£ of its
rulings/order/responses, including the 60(b) Order (Doc. 207) despite Movant s
assertion #7 of a material fact having been overlooked (Doc. 206, PageID:iQ35)
2. The prosecutor has not uttered the words "1000 Mian Street" in an£ of its
answers/responses despite the material relevance demonstrated in Movant s
submissions asserting, among other things, that the prosecutor s failure
to discuss the materiality of "1000 Mian Street" in the underlying affidavit
for search warrant would support a fraud-upon-the-court finding warranting
either recall of the mandate or 'extraordinary circumstances to relitigate.
3. The district court appears to have never made any factfindings whatsoever
regarding the 1000 Mian Street location-of-evidence-address listed in the
underlying affidavit for search warrant (PageID:85) despite its plain error
nature to have never factored it in Leon's good-faith-exception-analysis.
***» district erroneously claimed that this quote appeared in the underlying
4.. The
affidavit for search warrant:"lhe building does not have ^the str'^;r.acadf?!3^l
axuu Avenue . ." (PageID:1009, FN1, Order denying 2255 relief)
. . . 709 Elberon
when, in fact, that quotation could oily have been made from the warrant
(PagelD: 82 & 83), which oould, among other things, support a finding that
the court has effectively demonstrated a "'motivation to vindicate a prior
conclusion' when confronted with a question for the second or third time
in accord with Liteky v. United States, 510 U.S. at 560, 562-563.

1089)
factual-setting. There appear no factfindings on
6. The district court denied relief by misappraising Movant's Franks claim as:
"Petitioner has not explained in any detail how the information in his

^^Sc^StSefSlSyS M tria^oounsel properly
2£Sic?heSings^d^"3cSSly^d plilAi?beSSfa^le"e(PagID:
1089), and the district court has not refuted that it would have granted
suppression, or a franks hearing, had Doc. 184) bean presented to the trial
court at the original trial proceedings" (PagelD: 1089, Doc. 206) therefore
this claim has not been adjudicated on the merits of the true-factual-setting.
7 The district court never made any factfindings on counsel's failure to argue
conveyed in the amended 2255 motion (Doc. 190), as well
(Doc. 206, PagelD: 1088), particularly, after factoring 1000 Mian Street
was, in fact, the averred location of evidence in the underlying affidavit
(PagelD: 85)

Case: l:09-cr-00047-MRB Doc #: 206-1 Filed: 09/09/19 Page: 1 of 6 PAGEID #: 1085
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
^

SCANNED AT WCi amjH^aited
to USQC OHSD on

20#by„_i/JL

Pi
' t

No, of Pgs.

Mo VA^'1—
W

Clc’- %<Z t'-i O -

/ -o9-

; re-cf

Motion for Relief 60(b) from Order Denying Relief (Doc. 191)

Petitioner-Movant asserts that the Order denying Relief (Doc. 191) is subject to relief under one or more sub-sections of 60(b) as demonstrated herein
and within the attached Memorandum in Support, including, but not limited to 60(b)(6).
As an initial matter, other motions for relief under 60(b) have also been contemporaneously filed, which, may make this motion moot, or effectively
nullify the Doc. 191 Order should they be granted, and the Petitioner-Movant respectfully requests that the factfinding resulting from any of these 60(b)
motions reach back fully and fairly to consider not only the appellate stage factfinding and rulings, but to the extent permitted by law, the earliest point
in the adjudications that the Constitutional violations asserted may have tainted the proceedings, even if the Constitutional violations asserted
effectively warrant revisiting trial level factfinding and rulings under the lens of ‘but for the Constitution violation at that earlier stage' Petitioner
would/wouldn't have been granted relief.
Under 60(b)(6) (and other relief), Petitioner-Movant asserts here, and elaborates on in the Supporting Memorandum, that:
1)
2)

3)
4)
5)

6)

7)

Ruling on 2255 motions was premature, as Superseding Reconsideration of Stay (Doc. J£j had put the district court on notice that the 6th
Circuit oral arguments had not yet been reviewed due to technical issues at the Petitioners place of confinement.
The affidavit (Doc. 192) from the librarian at the Petitioner's place of confinement, provided a sworn statement regarding the technical
difficulties related to, among other things, the Petitioner’s ability to review oral arguments on CD's, and although docketed after Doc. 191
Order, that affidavit’s notarization date pre-dated the order denying 2255 relief (Doc. 191).
The district court appears to have based its reasoning for denial, at least in part, on inadequate factfindings (i.e. did not effective reach
merits founded on true factual setting), as demonstrated in the contemporaneously filed Memorandum in Support
The district court appears to have based its reasoning for denial, at least in part, on overlooked critical material facts (i.e. did not
effectively reach merits founded on true factual setting), as demonstrated in the contemporaneously filed Memorandum in Support
The district court appears to have based its reasoning for denial, at least in part, on overlooked contentions (as evidenced by lack of any
factfindings on those contentions (i.e, did not effectively reach merits on true factual setting), as demonstrated in the contemporaneously filed
Memorandum in Support (see also offers of proof within Doc. 194 and/or Doc.195)
Despite the allegations of prosecutorial misconduct and prosecution’s Fraud-Upon-The-Court (Doc. 190, among other motions), the words
“prosecutorial misconduct" and “fraud upon the court” appear nowhere in the district courts rulings, orders, responses, evincing any or all of
the following: inadequate factfindings, overlooked critical material facts, overlooked contentions raised by Movant, lack of full and fair
adjudication of proceedings
Despite the arguments relating to the underlying affidavit’s (PID 85) use of “1000 Mian Street" as the location of “evidence of criminal activity"
(PID 85) raised in Doc. 190, among other documents, the words “1000 Mian Street” appear nowhere in the district courts rulings, orders,
responses, evincing any or all of the following: inadequate factfindings, overlooked critical material facts, overlooked contentions raised by
Movant, lack of full and fair adjudication of proceedings
Respectfully Submitted,

P - -

nr*,

Case: l:09-cr-00047-MRB Doc #: 206-1 Filed: 09/09/19 Page: 2 of 6 PAG El D #: 1086

CERTIFICATE OF SERVICE

This document was electronically filed on 9/6/19 which should forward copies to all parties of record

Kenneth Rose, #655-843

Case: l:09-cr-00047-MRB Doc #: 206-1 Filed: 09/09/19 Page: 3 of 6 PAG El D #: 1087

Memorandum in Support

As an initial matter, the Movant requests a Stay on this motion as: 1) There are motions pending before
the Court of Appeals related to this case, and 2) This motion would otherwise reinvest jurisdiction to
this court to adjudicate the Motion for Disqualification and Appointment of Counsel before adjudicating
this motion, therefore a stay is requested on adjudication of all three motions until the Sixth Circuit
adjudicates the motions pending before them.
As demonstrated - in the arguments section which follows - critical material facts were overlooked in the
adjudication of the 2255 motions. Movant wishes to submit a complete list of the overlooked material
facts within 14 days (with the appointment of counsel if possible) of the Sixth Circuits adjudication of the
motions now pending before it, should those adjudications result in an unfavorable ruling.

Case: l:09-cr-00047-MRB Doc #: 206-1 Filed: 09/09/19 Page: 4 of 6 PAGEID #: 1088

ARGUMENT
To obtain a ODA, a petitioner Jiiust make "a substantial showing of the denial
of a constitutional right.** 28 U.S.C. § 2253(c)(2). To satisfy this standard, a
petitioner must demonstrate “that jurists of reason could disagree with the
district oourt*s resolution of his constitutional claims or that jurists oould
conclude the issues presented are adequate to deserve enoouragafttsnt to proceed
further.** Miller-El v. Cockrell, 537 a.3. 322, 327 (2003). See also Autry v.
Estelle, 464 U.S. 1301, 1302 (1963) (certificate required if court "cannot say
that the issue lacks substance"); Buxton v. Collins, 923 P.2d 816, 819 (5th
dr.), cart, dolled, 498 U.S. 1129 (1991) ("any doubts whether £a certificate Of
probable causej.«*should be issued are to be resolved in favor of trie petitioner**).
Given that the Petitioner raised Constitutional violations relating to underlying
affidavit's (FID 85} us® of **1000 Mian Street" as the address where "criminal
activity will be found'* {FID 85) which was plainly different from the search
warrant's "709 Elbaron Ave" atMTass-actually-searcJiad (PID 32) and the absence
of arv£ factfindings, "A reasonable doubt exists as to whether tit® district court
fully and fairly adjudicated the matter" (Federal Habeas Corpus Practice and
Procedure, 4th Dd., Hertz and Liebman, p.1593) therefore a COA should be issued.
Given that the Petitioner raised Constitution violations relating to prosecutorial
raisooretuct (FIB 991-992), aspects of which amounted to fraud-upon-the-oourt, and
the absence of an£ factfindings, particularly in light of factuality of the offers
of proof (PID 969, 991, 992) lacking an£ rebuttal by the prosecution, "A reasonable
doubt exists as to whether the district court fully ami fairly adjudicated the
matter" (Federal Habeas Corpus practice and Procedure, 4th 2d • i Hertz and Lieoaan,
p.1593) therefore a cm should be issued. Given reasons to doubt that the district
court fully and fairly adjudicated the matters, its denials of GOA (Doc. 200) and
aontinued IFF status on appeal (Ooc. 201) should be nulled in Petitioners favor.

Case: l:09-cr-00047-MRB Doc #: 206-1 Filed: 09/09/19 Page: 5 of 6 PAGEID #: 1089

Given that the original adjudications of the good-faith exception application
ware underpinned by the erroneous promise that the underlying affidavit for search
warrant (PID 85) failed to specify any address (which would have been a worse
factual scenario than that 6th Cir. ease Mills, 389 F,3d 586, 577-578, en banc den,
granting suppression) the true factual setting was that the underlying affidavit
(PID 85), in fact, averred "1000 Mian street" (PID 85) was the address where
"evidence of cris&nal activity will be fond" (pid 85) (which is a factual scenario
squarely analogous to the 6th Circuit's precedent in Cline, 745 F. Supp 2d 773, 807,
affirmed 6th dr. 2012 where the address in the underlying affidavit clearly was
different from the different address apoewring on the warrant, granting suppression),
a <SB should be issued.
Smith v. Wainwright, 737 F.2d 1036, 1037 (11th Cir. 1984) (certificate granted
baoause "district court refused to hold an evidentiary hearing to develop the
true factual setting in which this claim must be judged")
(Federal Habeas Corpus Practice and Procedure, 4th Ed., Hertz and Lle&nan,
P.1593)
Given that the district 'simply ignored* and 'never reached the heart of the
'central question* the plea-imffective-assistanoa-claiffl, which was that trial
counsel "induced my guilty plea • # • " (3-aount plea, over 1 count plea) "based on the
assurance • m « .milti-oount sentence would be entirely concurrent • « * " (PID 723, sworn
unopposed offer of proof) because "his review of the Sentencing Guidelines did not
subject the Defendant to a sentencing range including the word 'life* • « • (thus
enabling consacutiv® sentencing)" (PID 994). Acceptance of the 3-aount plea hinged
on counsel erroneous assurance the sentence would be fully concurrent, which if true,
would have resulted in the PSR's 17 year sentence, therefore a cm should be issued.
Given that tha district court didn't address 'one of Petitioner's aentral
aantsntlans* of tile franks-ineffective-assistance-claiia, wnien was that "Had trial
counsel properly developed the trial court record with (Doc. 134) ♦ m • the results of
the suppression hearings would have clearly and plainly bean favorable to granting
suppression • * • " (PID 995) if prepared/presented at trial, thus, a CQA should issue
as the court never denied it would have granted suppression, or a franks hearing, had (Doc. 184) been
presented to the trial court at the original proceedings
A

Case: l:09-cr-00047-MRB Doc #: 206-1 Filed: 09/09/19 Page: 6 of 6 PAGEiD #: 1090
■

i

Townsend, 372 U.S. at 313 ("merits of the factual dispute were not resolved");
Perillo v. Johnson, 79 F.3d 441,446 & n.6 (5th Cir. 1996) (court factfindings on ineffective assistance did
not address factual issues that was critical to assessment of counsel's possible conflict of interest);
Armstead v. Scott 37 F.3d 202, 208-09 (5th Cir. 1994), cert denied, 514 U.S. 1071 (1995) (court's factual
findings did not address one of petitioner's central contentions);
Chacon v. Wood, 36 F.3d 1459,1465 (9th Cir. 1994) (court's rulings in ineffective assistance of counsel
did not include finding on central question of historical fact);
Schmidt v. Hewitt, 573 F.2d 794, 801 (3rd. Cir. 1978) (facts suggesting that confessions secured by
coercion were "simply ignored" by factfinder));
United States Postal Service Bd. Of Governors v. Aikens, 460 U.S. 711, 717 (1983) (remanding because
"we cannot be certain that [lower court's] finding of fact... were not influenced by its mistaken view of
the law");
Sullivan v. Cuyler, 723 F.2d 1077,1084-85 (3d. Cir 1983) (court "never reached the heart of the
conflict of interest inquiry");
Bishop v. Rose, 701 F.2d 1150,1155 (6th Cir. 1983) ("It is clear to us that in this case [lower court] did
not make a factual determination on the critical issue"

DISTRICT COURT'S ABUSE OF DISCRETION IN RESOLVING MOTION FOR LEAVE TO FILE COA WITH ASSISTANCE
OF APPOINTED COUNSEL (DOC. 196)

On 11/3/18, Petitioner filed Motion For Leave to File For COA (Doc. 196) which, among other things,
requested an extension of time for the Movant to assert the COA issues for review, either with the assistance
of appointed counsel or, in the alternative, pro se. This motion brought to the court's attention that a motion
for appointment of counsel had been filed the day before and, incorporated that document (Doc. 194), by
reference. The motion also raised the concern that adjudication of the other "November 2018 motions
presently before the court" may alter the court's denial of relief once the court recognized it had overlooked
critical material facts outlined in those motions as well as their offer of proof (Doc. 194 and/or 195). In other
words, the district court, clearly noticing that a motion for disqualification had been filed demonstrating
critical material facts were overlooked by the court in its denial of 2255 relief, should have, in the interests of
justice and/or the appearance of full and fair litigation, sua sponte reconsider its denial of 2255 relief in light of
the overlooked critical material facts having been brought to the court's attention (Doc. 194 and 195), or
alternatively, not oppose, months after the denial of 2255 relief, the granting of a COA and/or IFP status on
appeal. Reasonable jurists would find the courts resolution of the COA and IFP on appeal debatable and
deserving encouragement to proceed.

Case: l:09-cr-OCG47-MRB Doc #: 195Fiied: 11/02/18 Page: l of8 PAGBD#JL016_—
IN THE UNITED STATES DISTRICT COUR^S^^^
and E£la»leo
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION

1

to USDC OHSO on JIS-------------------

No. of Pgs.

KENNETH ROSE

l

Movant
v.
Case Nos:

UNITED STATES OF AMERICA

1:09-cr-047
1:14-cv-809

MOTION TO DISQUALIFY (28 U.S.C. § 144)

ORAL ARGUMENT REQUESTED
Hearing Date:
Hearing Time:
Courtroom:
Relief Sought
Movant, Kenneth Rose, moves this court under Section 144 of Title 28 of the United States Code for an
order to disqualify Judge Barrett in the above-captioned case and assign another judge to the case.
Grounds For Relief
The court should disqualify Judge Barrett in this matter because of the appearance of lack of
impartiality and/or bias as demonstrated herein.
Record on Motion
This motion is based on this document, Certificate of Service, the Affidavit of Kenneth Rose, the
Supporting Memorandum of Law, attached to this motion, and all of the pleadings, papers, and other records
on file in this action.
Dated: 1
Kenneth Rose, #655-843
Warren Correctional Institution
5787 State Route 63
Lebanon, OH 45036

CERTIFICATE OF SERVICE
I hereby certify that this document was submitted for ECF filing on 11/2/18, which should forward copies to
parties of record.

Case: l:09-cr-00047-MRB Doc #: 195 Filed: 11/02/18 Page: 2 of 8 PAGEiD #: 1017
MEMORANDUM OF LAW
INTRODUCTION / FACTUAL BACKGROUND

Despite defendant’s difficulties and disabilities (see concurrently filed Motion to Appoint Counsel), defendant
recognizes that meritorious facts - which would mandate relief as a matter of law - were not previously before
the trial and appellate courts (or properly before the courts) due to fraud upon the court and/or ineffective
assistance of counsel (see Amended 2255, Doc. 190), and material facts alone, without proper legal argument1
can be obscured into a seemingly well founded adverse ruling. Defendant’s understanding of what constitutes
actionable ‘evidence’ in support of judicial disqualification for bias and/or impartiality has been formed primary
on the following caselaw examples and defendant believes Judge Barrett is acting in accord (see also Affidavit
of Bias or Prejudice):
1.) Kaeding v. Warden, 2012 U.S. Dist. LEXIS 144379
.... The standard applied in evaluating recusal motions is an objective one. “[WJhat matters is not the
reality of bias or prejudice, but its appearance.” Liteky v. United States, 510 U.S. 540, 114 S. Ct.
1147,127 L. Ed. 2d 474 (1994). A federal judicial officer must recuse himself or herself where “a
reasonable person with knowledge [*3] of all the facts would conclude that the judge’s impartiality might
reasonably be questioned. This standard is not based ‘on the subjective view of a party,”’ no matter
how strongly that subjective view is held...
2.) Parham v. Johnson (1998, WD Pa) 7 F Supp 2d 595
Court recuses itself upon remand of inmates 1983 action due to court’s abuse of discretion in denying
the inmate appointment of counsel, where findings of Third Circuit based on inaccurate factual
premise formed because highly relevant portions of case record were not included in appellate
record, because court’s “impartiality might reasonably be questioned” in future by counsel or party...

3.) Liteky v. United States, 510 U.S. at 560, 562-63 (Federal Habeas Corpus Practive and Procedure,
Fourth Edition, 2001, Section 41.4c FN 45)
(recognizing importance of appellate consideration of need to disqualify trial judges “based upon a
judge’s prior participation, in a judicial capacity, in some related litigation,” given judges’ “’motivation to
vindicate a prior conclusion’ when confronted with a question for the second or third time” and
given that judges sometimes “find it difficult to put aside views formed during some earlier
proceeding...[and] through obduracy, honest mistake, or simply inability to attain self-knowledge ... fail
[] to acknowledge a disqualifying predisposition or circumstance” (citation omitted)

1 In evaluating objective good faith, we consider "not only how well-established is the general legal principle involved but also how
precisely the facts coincide with the [**28] cases applying that principle' United States v. Smith, 1986 U.S. App. Lexis 22288 at **28.
That the officer may have convinced the magistrate, district judge, or members of the appellate panel that probable cause existed to
support the warrant does not establish the officer's objective good faith...such an analysis would give the magistrate the last word
on the exclusion question. Footnote 4

Case: l:09-cr-00047-MRB Doc #: 195 Filed: 11/02/18 Page: 3 of 8 PAGEID #: 1018
4.) In re United States. 441 F.3d 44 (1st Cir. 2006)

(test for recusal is whether an objective, reasonable member of the public, fully informed of all the relevant
facts, would fairly question the trial judge’s impartiality)....

5.) In re Moodv. 755 F.3d 891 (11th Cir. 2014)

(recusal turns on whether an objective, disinterested, lay observer fully informed of the facts underlying the
grounds on which recusal was sought would entertain a significant doubt about the judge’s impartiality).

6.) United States v. Adams. 722 F.3d 788 (6th Cir. 2013)

(district court judge must recuse himself where a reasonable person with knowledge of the all facts would
conclude that the judge's impartiality might reasonably be questioned, and this is an objective standard).

ANALYSIS

Considering the facts outlined in the Affidavit of bias or Prejudice, the arguments put forth in the 2255 motions,
and the prima facie evidence presented in the record expansions, including but not limited to the letter from
Georgetown Law School demonstrating plain manifest errors exist (Doc.186) a reasonable member of the
public, fully informed of all relevant facts, would fairly question the trial judge’s impartiality in the adjudication of
the 2255 proceedings.
Further, it is “clearly established that police officer cannot, in good faith, rely on a judicial determination of
probable cause when that determination was premised on an officer’s own material misrepresentation to the
court" Westly v. Campbell, 779 F.3d 421, 2015 U.S. App. Lexis 3239 at **29, citing Gregory, 444 F.3d at 758
(citing Yancey v. Carroll Cnty, 876 F.2d 1238, 1243 (6th Cir. 1989) (see also prima facie evidence in Doc. 184).

Case: l:09-cr-00047-MRB Doc #: 195 Filed: 11/02/18 Page: 4 of 8 PAGEID #: 1019
HAD COUNSEL ARGUED CORRECT PR£CEDENT(MILLS, 389 F.3d 568, (6th Cir. 2004}), EVEN UNDER WEAKER POSTURE
THAT AFFIDAVIT 'MERELY OMITTED' THE ADDRESS-ACTUALLY-SEARCHED, SUPPRESSION WAS MANDATED AS A
MATTER OF 6™ CIRCUIT LAW, NO GOOD-FAITH EXCEPTION UNDER FACT PATTERN PRESENTED AT TRIAL

The underlying affidavit neither connects the searched residence to any illegal activity nor states that a
person engaging in illegal activity away from the residence lives at the searched residence. The affidavit contains no
statement or other evidence that the [Vl/Ml] actually observed contraband on the premises of the place to be
searched, no statement or evidence that [Defendant], the person named in the affidavit as the one from whom
[Vl/Ml was "forced" into sex], lives at [address-actually-searched, nor, affidavit's only averment "1000 Mian
Street"]., nor any other statement or evidence that ties plaintiff to the place to be searched. The affidavit does not
indicate that Officer [Schroder] performed any investigation to determine whether plaintiff lived at [address-actuailysearched, nor, affidavit's only averment "1000 Mian Street"].

Mills v. City of Barbourville, 389 F.3d 568 (6th Cir., Nov. 12, 2004), 2004 U.S. App. LEXIS 17836 ** | 2004 FED
App. 0276P (6th Cir.) ***,Rehearing denied, Rehearing, en banc, denied by Mills v. City of Barbourville, 2005
U.S. App. LEXIS 3837 (6th Cir., Mar. 3. 2005)

The underlying affidavit neither connects the searched residence to any illegal activity nor states that a
person engaging in illegal activity away from the residence lives at the searched residence. The affidavit
contains no statement or other evidence that the male juvenile (Leo Cox) actually observed contraband on
the premises of the place to be searched, no statement or evidence that plaintiff Lisa Mills, the person
named in the affidavit as the one from whom Cox purchased the marijuana cigarette, lives at 801 North
Allison Avenue, nor any other statement or evidence that ties plaintiff to the place to be searched. The
affidavit does not indicate that Officer Broughton or Chief Smith performed any investigation [**18], to
determine whether plaintiff lived at 801 North Allison Avenue.......

Under an "objective reasonableness" test, the officers "will not be immune if, on an objective
HN6
basis, it is obvious that no reasonably competent officer would have concluded that a warrant should issue;
but if officers of reasonable competence could disagree on this issue, immunity should be recognized." Id. at
341. The proper inquiry, therefore, is whether a reasonably competent investigator [**21] armed with
Officer Broughton and Chief Smith’s knowledge and experience could have believed that probable cause
existed to search 801 North Allison Avenue. Because the officers presented absolutely no information in the
affidavit presented to the magistrate indicating that the place to be searched was connected to Lisa Mills,
either through a sworn statement that Cox had identified the residence as the place of the drug purchase or
through independent investigation corroborating that it was the home of Lisa Mills, the affidavit was "so
lacking in indicia of probable cause that official belief in the existence of probable cause is unreasonable."

Case: l:09-cr-00047~MRB Doc #: 195 Filed: 11/02/18 Page: 5 of 8 PAGEiD #: 1020
Case: l:09-cr-00047-MRB Doc #: 44-l‘Filed: 05/21/10 Page: 4 of 7 PAGEID #: 85

i
*
s

I
jy

r-

I

t

lf— f

No

sjati; of oj-uo

SS:
HAMILTON COUNTY

l

I f

AFFIDAVIT FOR SEARCH WARRANT

f If
I.

Police Officer Chris Schroder, being first duly cautioned and sworn, deposes and says
that there are uems within the jurisdiction of the Hamilton County Court of Common
Pleas at: 7000 Mian Street Cincinnati, HAMILTON COUNTY, OHIO, 45202

T

s:
I

and that based upon the attached affidavit and the investigation lhave conducted, 1 have
probable cause to believe that evidence ofcrixninal activity will be found at the above
listed places and the following items contained therein are requested to be searched,
and/or seized:

1
;

•. l

t

i

i

t

i

13 Computers-defined as centra! processing units, computer motherboards, hard drives,
floppy drives, removable and re-write able media, tape and digital drives, internal and
external storage devices, video display units or receiving devices, scanners, printers,
modems, any and all connecting cables and devices, input devices such as “web
cams” video cameras, audio recording devices, disc’s both audio, video and digital,
any memory devices such as smart media, memory sticks, or any other form of
memory or device utilized by the computer or it’s devices. Any computer software,
programs and source documentation, computer logs. (This description constitutes the
definition of a computer system as that term may be used throughout this document.)
• And all computer related accessories not specifically mentioned herein, aii equipment
■ having been used in violation of 2907,02, Ohio Revised Code.

1

2) Ary documentation and/or notations referring to the computer, the contents of the
computer, the use of the computer or any computer software and/or communications.
All mfonnation within the above listed items including but not limited to machine
readable data, all previously erased data, and any persona] communications including
but noi limited to e-maii, chat capture, capture files, correspondence stored in
electronic form, and/or correspondence exchanged in electronic form as indicative of
use in obtaining, mafntemtnoe, and/or evidence of said offense.
Any financial recuuix or teceints kept as a pan of and’or indicative of the obtaining
maintenance. anu/<>> evuieneo of said oflense; financial and licensing information
with respect to she computet software and hardware.

All of the above records, whether stored on paper, on magnetic media such as tape,
cassette, cartridge, disk, diskette or on memory storage devices such as optical disks,
programmable instruments such ns telephones, “electronic address books”, persona)
digital assistants, smart media, memory cards, memory sticks, calculators, or any

Appy. A
ROSE 044

!:

Case: l:09-cr-00047-MRB Doc #: 195 Filed: 11/02/18 Page: 6 of 8 PAGE1D #: 1021
Case: l:09-cr-00047-MRB Doc ff lilt Filed: 05/21/10 Page: I of 7 PAG El D A: 82

COCiC; OFCOMnlOiS FlEwS
HATffLTOM COlffin Off I ff
CiuffiffffL iWffffTff
!>: i. iC MATTER OT 0; i i:
AFFIDAVIT Off. SEARCH ' • .dffNvn
i-'F- TH.: irCTS : 'CATION Iff

CO.

( '
'

hflye

wmwmmm

Clfidaaaii
iiATiii.TOCTOFFTV. OHIO 4?. Kir

: •. iff
cijii'i of Cindninitii. greetings. Whereas an afndavi: Or a search •.varra.nf
:iLr. ina heen maUN under uaih try Felice Office: Chris Schroder. ;■> t*eace officer of the
( iv inc;;!: Pollen. oftff Dais of Ohio the Conn tines,
. iff ere is rjvO-ffD

csmln

;n fff

e In at KencctT Rasa.

COiiiMiiWCS' Wid a:V .’ .NlCOiffOii cffffo-LCs ;;: \ ii’i.U! j.jii

r'ffvs --a known.
iff Ohio RrsNcC:

C-Na Secern IvOffijff
'

There -A pvoh.ihjc rwe?,: si iv-ff ve iff’ evidence penaffan ns iff .iLcrrcci:.-' A
■.••iVcnacs w:H he obtained through the search and seizure of computers. eompunrr
•i.aui and o-.v.-r electronic d.ua in storage, as well as other ffms detailed bdow .

a

In narnenffr Tie cv:hence -en ed -will u- cat the details of the . oh ament oi'.h..
participant.-. idem.! tics ofinfirm. evidence of the aiioscri violations. records o:
Iff alleged tn-msacUoiis or transmissions, and places that criminal aero tty
occurred as '.veil as other inromanen concerning the ongoing criminal
eonsprat >. iff object of which is simed above

AN affd.r. h n leOu.-nff heiCto. and ;r.C''rpiTaic-.i herein, cuo! these are. iherci-.ve. :o
:hc necessary and x aoci
.
.•.,n;ina;:-.l v-v a: iff n.ans: o! iff .cnn .a (.ffio ,v'
w cn;er. in iff Jv-Nmo into iff. resniejice located at: 'TO liber, n Avenue .lp.uinietn
rmiuffr siic. ("iiiciivnai:, iiamlkon County. Ohio -0205. Further described as a two story,
ii.-ik; unis I'.ahiiv.y, .eddish track convniNion, nidi vine .<■ i'.k'ovxs facing Eibc-rcui
..'Lee. fhe builJse has a Wvff 'vo itorc awning covering lhe red iron! door. 1 he
’On.’ Ins r-’.i”- O.hwdnai '. Ind.vAr
street :r. i-;
:wi.'ImIa! a ;>ffffi-Auf
;bo HCowniy .■\i.kiff.o ff *-n‘* ini: -In-

/Ipp^
O' fff o-l i

Case: l:09-cr-G0047-MRB Doc #: 195 Filed: 11/02/18 Page: 7 of 8 PAG El D #: 1022

Kenneth Rose, #655-843
Warren Correctional Institution
5787 State Route 63
Lebanon, OH 45036
?

December 20,2017
Dear Mr. Rose,

,

towgkly reviewed the case that you submitted, as well as all the relevant
nvUeuCiaSe dlescn^on looks 95
it accurately describes the opinion of the Sixth
un^fstand ^ you disagree with the facts on which the court relies—
specifically that die address of 709 Elberon was never included on the affidavit on which the
court applied. Although it is
JSfSlSjsuch facts wouId have affected the court’s decision, thereby making our case
aes^nphogmaccinate, we do believe the current parenthetical accurately reflects the court’s
decision as written. Additionally, I reviewed the briefs for the Sixth Circuit decision, and the
statements of facts on both sides seem to reflect that 709 Elberon was included in the affidavit,
.S hfd tor us t0 say *at there was au obvious error without looking at the affidavit itself.
perceitedOToray
aboutthe uaderiying facts, we are not in a position to remedy that
ThlS 1S a l ta sfy that we PIan t0 keeP the case in this edition without substantially
modifymg it—we feel that it is useful to readers as an example where the court found there to be
no substantial basis for the magistrate to find probable cause based on the affidavit
We also are unable to refer you to any attorneys. We are a student-run publication, so we
do not have access to attorney services that would be of use to you. We hope that you are able to
find assistance m pursuing your claims. Again, we always appreciate receiving concerns and
suggestions from readers, and we tbank you for regrj}ing-£int
Sincerelyr ?

Student Editors
Annual Review ofCriminal Procedure
600 New Jersey Ave. N.W.
Washington, DC 20001

••cApnAt'

I
warren corwcoon&i ) nsnrvmo
Sin sfflw vmxo
LCtianon} OH Hr$03g?
Appv c

*=WMCTING U.S. SUPREME OURT AMD SIXTH CDmT DBCISICNS ffilNG GMSkWM) BY 6IH dROJir MME_11^313

Malley v. Briggs, !?<llE[.Sis335s 344-45 (1986) applied to similarly situated defendant in 6th Circuit case:
Mills v. City of Barboundlle, 389 F.3d 568, 575-578, 20% U.S. App. LEXIS 23753. at 14 and 21 (6th Or. 20%)
supporting the search warrant for plaintiff’s
(at 14) "We reverse and remind because the affidavit (**14)
reasonable
officer.. .should have known that there
hone was not supported by probable cause and a
was not probable cause to conduct the search."
(at 21) "The nroner inquiry, therefore, is whether a reasonable competent investigator (**21)...could
have believed that probable cause existed to search (address in affidavit, in the instant
case "1000 Mian Street"). Because the officers presented absolutely no information in the

ffiSSsa£SSSaSHs|^s

independent investigation corroborating that it was the home of (suspect), the affidavit was
"so larking in indicia of probable cause that official belief in the existence of probable
cause is unreasonable".

Note: The analysis of the goocT-faith exception in the qualified inmmty
^arl
suppression context presented here. See Malley v. Briggs, 475 U.S. 335, 344 (1986)( (W)e hold that
^andard of objective reasonableness that we appliai in the context of a suppresaonheanng
the sane
in Leon • • • defines the qualified immunity accorded an officer whose request for a warrant allegedly
rancyxi caused an unconstitutional arrest.)
<*»>

“““

authorized the officer to conduct a search of limited scope.
This substantive right is not protected when the officerfeils
to take the time to glance at the authorizing document and
(Wrt. ,nf Constitutional magnitute. );
see also'idat 562T^is incumbent on the officer executing
a search warrant to ensure the search is lawfully authorize!
and conducted."); George, 975 F.2d at 77 ("Reasonable
reliance does not allow an officer to conduct a search with
rr^ipWfr disregard of the warrant's validity because the
’standard of reasonableness...is an objective one...(cse that)
requires officers to have a reasonable knowledge of what the
law prohibits." (quoting Leon, 468 U.S. at 919 n.20))
Groh applies through Hodson, 543 F.3d at 293 as qumif-pH in similarly situated defendant in Cline (6th Cir.):
Cline v. City of Mansfield, 745 F. Supp. 2d 773, affirmed 2012 Fed App. 913J (6th Or. 2012) at 807:
(at 807) In short there is little question that the affidavit in this case was 'so lacking in
reasonably’well trained officer in the field, upon looking at this warrant, would have
realized that the search described..the probable cause described... )
In this case, by contrast, (**74) it is clear that any reasonable officer who:
(a) read the affidavit, and (b) happened to discover that it referred^eselusiveji to
(("lOOOMi^i Street - adapted to the instant case)) would know that the affidavit did
not reflect probable cause to search ((”^D9Blberan Av»" - adapted to the insfeant case)).
8201 : #

8

81/20/IT :papd S6T :# ooq SHWIKlOO-JO-eOT

pp * jN>

easerT^59TOS3Q?T-MRB Doc #: 195-1 Filed: 11/02/18 Page: 1 of 2 PAGEfD #: 1024

SCANNED
'*A'C! and yM».»e.tc US DC OHSD on AiuL.~
2C$ by _J/j£

‘I

**

IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION

No. of Pgs.
KENNETH ROSE.

Movant
v.
UNITED STATES OF AMERICA

Case Nos:

1:09-cr-047
1:14-cv-809

MOVANT’S AFFIDAVIT OF BIAS OR PREJUDICE (28 U.S.C. § 144)

AFFIDAVIT OF KENNETH ROSE
STATE OF OHIO
COUNTY OF WARREN
Kenneth Rose, being duly sworn, deposes and sworn, deposes and states:
1. My name is Kenneth Rose. I am over 18 years of age. I reside at 5787 State Route 63 in Lebanon, OH.
I am fully competent to make this affidavit and I have personal knowledge of the facts stated in this
affidavit. To my knowledge, all of the facts stated in this affidavit are true and correct.
2. I am the Defendant in this matter. I make this affidavit to disqualify the Honorable Judge Barrett from
this case on the basis of his personal bias or prejudice against me.
3. This federal case has been prosecuted despite an agreement with the State prosecutor to “close the
case’’ and seek no indictment related to the search warrant results in exchange for a guilty plea and
. twenty year sentence as State Judge Mallory already expressed his target sentence range of fifteen to
twenty years after factoring in the search result depictions.
4. The underlying Affidavit/Application for search states: “Affidavit for Search Warrant”, is docketed as
PagelD#85, and clearly communicates “evidence of criminal activity will be found at. ..[1000 Mian
Street]”
5. The Application/Affidavit for search, PagelD#85, offers absolutely no dwelling characteristics.
6. The Sixth Circuit previously determined the address-actuaily-searched was not in affidavit for search.
7. The Search Warrant, docketed as PagelD#82, explicitly and obviously states an address-to-besearched that does NOT match (“1000 Mian Street”]”.
8. The discrepancy between the “1000 Mian Street” address on the face page of the Application/Affidavit
and the different address on the face page of the Warrant is obvious.
9. Judge Barrett erroneously claims “the search warrant affidavit' (emphasis added) included and
described “the place to be searched” [PagelD#1009, footnote 1] despite the fact the
Affidavit/Application absolutely does not, see #4,5,6

10. Judge Barrett does not acknowledge 'Fraud upon Court' (Doc. 190) as extraordinary
circumstances, nor at all, despite it's impact on both trial and appellate proceedings.

5woM

To

o*

Tk;s

m

j2-

cJ<z*-y

©F

• c.
____________
DAVID C. COMBS JR.
!
I Notary Public, State of Otto
s^\:3®?SsS»yoJ?Mv Commission ExaiesAuaust12.2019

i

Case: l:09-cr-00047-MRB Doc #: 195-1 Filed: 11/02/18 Page: 2 of 2 PAGEID #: 1025
CERTIFICATE OF SERVICE
I hereby certify that this Affidavit of Bias or Prejudice was submitted for ECF filing on 11/2/18, which should forward
copies to parties of record.

Kenneth Rose, #655-843

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 1 of 16 PAGEID #: 997

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Kenneth Rose,
Petitioner,
v.

Case No. 1:09cr047
(1:14cv809)

United States of America,

Judge Michael R. Barrett

Respondent.
OPINION & ORDER
This matter is before the Court on Petitioner’s Motion to Vacate under 28 U.S.C. §
2255 (Doc. 125); Petitioner’s Corrected Supplemental Memorandum (Doc. 130); and
Petitioner’s Amended Motion to Vacate under 28 U.S.C. § 2255.

(Doc. 190).

The

United States filed a Response. (Doc. 134).
Also pending before the Court are Petitioner’s first Motion to Expand the Record.
(Doc. 184); Petitioner’s second Motion to Expand the Record (Doc. 186); Petitioner’s
Motion to Take Judicial Notice (Doc. 187); Petitioner’s Motion to Alter or Amend Judgment
(Doc. 188); and Petitioner’s Superceding Motion to Alter Judgment (Doc. 189).
I.

BACKGROUND
In the Superseding Indictment, Petitioner was charged with twenty-two counts of

production of child pornography (18 U.S.C. § 2251(a)) and one count of possession of
child pornography (18 U.S.C. § 2252(a)(4)).
counts of the Superseding Indictment.

Petitioner entered a plea of guilty to three

Petitioner was sentenced to a total term of

imprisonment of 612 months, to be followed by lifetime supervised release. (Doc. 106).
Petitioner’s plea agreement permitted him to appeal certain decisions by this Court.

On

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 2 of 16 PAGEID #: 998

direct appeal, this Court was-affirmed by the Sixth Circuit.
F.3d 362 (6th Cir. 2013).
Supreme Court.

United States v. Rose, 714

Petitioner’s writ of certiorari was denied by the United States

Rose v. United States, 134 S.Ct. 272 (2013).

The relevant facts of this case are set forth in the Sixth Circuit’s opinion:
In November 2008, the Personal Crimes Unit of the Cincinnati Police
Department began investigating allegations that Kenneth Rose sexually
abused three minors. When the police interviewed the minors, they said
that Rose had sexually molested and/or raped them and that he had shown
them pornographic images on a computer in his bedroom. As a result of
the interviews, the police sought to obtain a search warrant for 709 Elberon
Ave., Cincinnati, OH. The application for the search warrant asked for
permission to search for computers and computer-related materials in
support of an investigation under Ohio's rape statute, Ohio Rev.Code §
2907.02.
The front page of the search warrant identified “Kenneth Rose” as the
subject of the search, and immediately below Rose’s name, it identified the
location to be searched as “709 Elberon Av. [sic], Cincinnati, Hamilton
County, Ohio 45205.” The warrant described the physical attributes of the
address, including that the name “Rose” appeared over the doorbell of
apartment number one. Attached to the warrant was a photograph of the
property taken from the Hamilton County Auditor's website,
The
supporting affidavit summarized the testimony of the three victims, including
testimony that Rose had shown two of the victims pornographic images on
a computer “located in his room” or “located in his bedroom.” The third
victim testified that he engaged in nonconsensual sexual activity with Rose
beginning in July 2008. The affidavit explained that the police sought to
obtain computers and related documentation.
Nowhere in the affidavit did the affiant, Police Officer Chris Schroder,
provide Rose's address. Nevertheless, the magistrate judge granted
Officer Schroder's request for the search warrant.
Police executed the warrant on November 12, 2008 and seized, among
other items, a laptop computer.
Forensic analysis of the computer
revealed numerous images of child pornography, several of which included
Rose engaged in sexual conduct with several male minors under the age of
sixteen.
714 F.3d at 365.

2

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 3 of 16 PAGEID #: 999

II.

ANALYSIS
A. Motions to Expand the Record
Rule 7 of the Rules Governing § 2255 Proceedings states that “[t]he materials that

may be required include letters predating the filing of the motion, documents, exhibits,
and answers under oath to written interrogatories propounded by the judge. Affidavits
also may be submitted and considered as part of the record.” 28 U.S.C.A. foil. § 2255.
In his first Motion to Expand the Record (Doc. 184), Petitioner seeks to expand the record
with his affidavit. This affidavit consists primarily of an annotated version of the affidavit
for the search warrant for 709 Elberon Avenue. The Court finds Petitioner’s first Motion
to Expand well-taken and accordingly, the Motion is GRANTED.
Petitioner’s second Motion to Expand the Record seeks to expand the record to
include a letter dated December 20, 2017 from the student editors at Annual Review of
Criminal Procedure. (Doc. 186). This letter does not predate the filing of Petitioner’s
petition. Therefore, second Motion to Expand the Record (Doc. 186) is DENIED.
B. Petitioner’s Motion to Take Judicial Notice
In his Motion to Take Judicial Notice, Petitioner seeks to have this Court take
judicial notice of certain facts based on the exhibits attached to the Motion. (Doc. 187).
Federal Rule of Evidence 201 provides:
(b) Kinds of Facts That May Be Judicially Noticed. The court may judicially
notice a fact that is not subject to reasonable dispute because it:
(1) is generally known within the trial court's territorial jurisdiction; or
(2) can be accurately and readily determined from sources whose accuracy
cannot reasonably be questioned.
Fed. R. Evid. 201. The Court determines that the facts enumerated in Petitioner’s Motion

3

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 4 of 16 PAGEID #: 1000

do not fall in either category. Therefore, Petitioner’s Motion to Take Judicial Notice is
DENIED.
C. Motion to Alter or Amend Judgment
In Petitioner’s Motion to Alter or Amend Judgment (Doc. 188), Petitioner asks this
Court to stay these proceedings to allow the Sixth Circuit to decide motions Petitioner has
filed with in his direct appeal case: U.S.A. v. Kenneth Rose, No. 11-4313. As this Court
has previously explained, on December 22, 2016, the Sixth Circuit denied Petitioner’s
Motion to Recall the Mandate.

(Case No. 11-4313, Doc. 53-1).

In subsequent letters

from the Clerk for the Sixth Circuit Court of Appeals, Petitioner was advised that his case
was closed and therefore the Clerk was returning motions tendered by Petitioner. (Case
No. 11-4313, Docs. 54-2, 56-3). The Clerk explained that these motions were not being
filed because his case was closed. Accordingly, the subsequent motions tendered by
Petitioner were not filed by the Clerk. Therefore, there are no motions pending before
the Sixth Circuit, and the Court finds no basis for ordering a stay of these proceedings.
Accordingly, Petitioner’s Motion to Alter or Amend Judgment (Doc. 188) is DENIED.
D. Superceding Motion to Alter Judgment
In Petitioner’s Superceding Motion to Alter or Amend Judgment (Doc. 189)
Petitioner again asks this Court to stay these proceedings to allow the Sixth Circuit to
decide motions Petitioner has filed with in his direct appeal case: U.S.A. v. Kenneth Rose,
No. 11 -4313. This Motion (Doc. 189) is DENIED for the same reasons the Court denied
Petitioner’s original Motion to Alter or Amend Judgment.

4

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 5 of 16 PAG El D #: 1001

E. Motion to Vacate under 28 U.S.C. § 2255
A prisoner seeking relief under 28 U.S.C. § 2255 must allege either “(1) an error of
constitutional magnitude; (2) a sentence imposed outside the statutory limits; or (3) an
error of fact or law that was so fundamental as to render the entire proceeding invalid.”
Mallett v. United States, 334 F.3d 491,496-97 (6th Cir. 2003) (citing Weinberger v. U.S.
268 F.3d 346, 351 (6th Cir. 2001), cert, denied, 535 U.S. 967).
Petitioner identifies the following grounds for relief: (1) this Court improperly denied
his motion to suppress; (2) this Court abused its discretion in refusing to reopen
suppression hearing when presented with new evidence; (3) this Court erred in denying
Petitioner’s motion to dismiss the Superseding Indictment because his acts were wholly
intrastate; (4) ineffective assistance of trial counsel; and (5) ineffective assistance of
appellate counsel.
Petitioner’s first ground for relief is based on this Court’s denial of Petitioner’s
motion to suppress.

Petitioner argues that the search warrant affidavit for 709 Elberon

Avenue was overbroad and lacked probable cause.

Petitioner explains that the search

warrant failed to establish probable cause to believe that evidence of the rape described
in the warrant would be found on a computer in the apartment.

Petitioner also argues

that a reasonable officer would not rely on a facially invalid warrant affidavit.
The Sixth Circuit has recently summarized the good-faith exception to suppression
as follows:
“When evidence is obtained in violation of the Fourth Amendment, the
judicially developed exclusionary rule usually precludes its use in a criminal
proceeding against the victim of the illegal search and seizure.” United
States v. Carpenter, 360 F.3d 591, 595 (6th Cir. 2004) (en banc) (quoting
Illinois v. Krull, 480 U.S. 340, 347, 107 S.Ct. 1160, 94 L.Ed.2d 364 (1987)).
There is, however, “an exception to the exclusionary rule where ‘the officer
5

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 6 of 16 PAGEID #: 1002

conducting the search acted in objectively reasonable reliance on a warrant
issued by a detached and neutral magistrate that subsequently is
determined to be invalid.’” United States v. Watson, 498 F.3d 429, 431
(6th Cir. 2007) (quoting Massachusetts v. Sheppard, 468 U.S. 981, 98788,104 S.Ct. 3424, 82 L.Ed.2d 737 (1984)); see also United States v. Leon,
468 U.S. 897, 922-23,104 S.Ct. 3405, 82 L.Ed.2d 677 (1984). The goodfaith exception, however, will not apply where “the affidavit is ‘so lacking in
[indicia of] probable cause as to render official belief in its existence entirely
unreasonable’” or “where the officer’s reliance on the warrant was neither
in good faith nor objectively reasonable.” Frazier, 423 F.3d at 533 (quoting
Leon, 468 U.S. at 923, 104 S.Ct. 3405.)
United States v. Jenkins, No. 17-1377, 2018 WL 3559209, at *6 (6th Cir. July 24, 2018)
(footnote omitted).

In this case, the Sixth Circuit applied the same analysis and found

that this Court did not err in denying Petitioner’s motion to suppress. The Sixth Circuit
explained:
Taking into consideration everything within the four corners of the affidavit,
the officer conducting the search of Rose's home exercised good faith and
acted in objectively reasonable reliance on the warrant's legality. First, the
affidavit showed that the case involved three victims who had spent time at
Rose’s home and provided detailed testimony about the activities that took
place therein. Second, the affidavit related that the affiant was a detective
in the Personal Crimes Unit and that he had been conducting an
investigation into the victims' allegations. Viewing the evidence in the light
most favorable to the government, it would be entirely reasonable to
conclude that either the testimony of the three victims or the independent
investigation by the detective, or both, revealed that Rose lived at 709
Elberon Ave.
714 F.3d at 369.
It is “well settled that a § 2255 motion may not be employed to relitigate an issue
that was raised and considered on direct appeal absent highly exceptional circumstances,
such as an intervening change in the law.” Jones v. United States, 178 F.3d 790, 796
(6th Cir. 1999) (citing Oliver v. United States, 90 F.3d 177, 180 (6th Cir. 1996); Davis v.
United States, 417 U.S. 333, 345, 94 S.Ct. 2298,41 L.Ed.2d 109 (1974)).

Petitioner has

not identified an intervening change in law or any other exceptional circumstances.
6

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 7 of 16 PAGEID #: 1003

Therefore, Petitioner cannot relitigate his claim regarding the search warrant affidavit in
this § 2255 proceeding.

Petitioner is not entitled to relief based on his first ground for

relief.
As to the second ground for relief, Petitioner argues that this Court abused its
discretion in refusing to reopen the suppression hearing when the Court was presented
with new evidence that the officer intended to mislead the magistrate into a finding of
probable cause. The Sixth Circuit addressed this argument as part of Petitioner’s direct
appeal and ruled that Petitioner was not entitled to a suppression hearing pursuant to
Franks v. Delaware, 438 U.S. 154, 98 S.Ct. 2674, 57 L.Ed.2d 667 (1978):
In support of his argument that he is entitled to a Franks hearing, Rose relies
on videotaped interviews of the victims and Officer Schroder's unredacted
notes, both of which Rose obtained after the district court ruled on his
Motion to Suppress. Rose argues that the videotaped interviews and the
notes reveal that the victims contradicted themselves over the course of
several interviews and that there were inconsistencies among the victims'
versions of the events that took place at Rose's residence. Nonetheless,
Rose has not established that the statements in the affidavit are in fact false.
The evidence seized from Rose's computer establishes that the substance
of the allegations were true. Without a showing of falsity concerning the
statements in the affidavit, Rose cannot make a substantial showing that
the affiant provided statements in the affidavit that he knew to be false.
Thus, the district court did not err in denying Rose's motion for a Franks
hearing.
714 F.3d at 370. Therefore, this was an issue which was raised and considered on direct
appeal.

Petitioner has not identified an intervening change in law or any other

exceptional circumstances. Therefore, Petitioner cannot relitigate his claim regarding
the search warrant affidavit in this § 2255 proceeding.
based on his second ground for relief.

7

Petitioner is not entitled to relief

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 8 of 16 PAGEID #: 1004

As to the third ground for relief, Petitioner argues that this Court erred in denying
his motion to dismiss.

Petitioner argues that the denial of his motion to dismiss violated

the Commerce Clause because his activities were “wholly intrastate.”
Relying on United States v. Bowers, 594 F.3d 522 (6th Cir. 2010), this Court ruled
that “the government here has demonstrated that both the camera used to take the
pictures and the computer on which they were found were made and shipped outside the
State of Ohio.”

(Doc. 78, PAGEID# 234).

The Sixth Circuit affirmed this Court’s

decision by stating their “decision in Bowers still controls the issue of the intrastate
manufacture and possession of child pornography.” 714 F.3d at 371. The Sixth Circuit
explained further:
The statute at issue in this case, 18 U.S.C. § 2251, does not force into
commerce individuals who have refrained from commercial activity. Rose
is not a passive bystander being forced into commerce, but he is actively
engaged in an economic class of activities that has traditionally been
regulated by Congress pursuant to its powers under the Commerce Clause.
Id.

Petitioner has not identified an intervening change in law since the Sixth Circuit’s

decision, or any other exceptional circumstances. Therefore, Petitioner cannot relitigate
his claim regarding the intrastate manufacture and possession of child pornography in*
this § 2255 proceeding. Petitioner is not entitled to relief based on his third ground for
relief.
In his fourth ground for relief, Petitioner argues that his trial counsel was ineffective
because he failed to inform Petitioner that he could be sentenced to consecutive
sentences.
Claims of ineffective assistance of counsel are governed by the two-part test set
forth in Strickland v. Washington, 466 U.S. 668, 687 (1984).

8

Under Strickland, a criminal

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 9 of 16 PAG El D #: 1005

defendant must demonstrate both that his “counsel's representation fell below an
objective standard of reasonableness” and “that there is a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been
different.” 466 U.S. at 687-88, 694. However, as the Sixth Circuit has explained, this
standard is adjusted for an ineffective assistance of counsel claim in the context of a guilty
plea:
In the context of guilty pleas, the first element, the “performance” aspect, of
the Strickland test remains the same but the second element, the
“prejudice” requirement, changes. “[I]n order to satisfy the ‘prejudice’
requirement, the defendant must show that there is a reasonable probability
that, but for counsel’s errors, he would not have pleaded guilty and would
have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 106 S.Ct.
366, 370, 88 L.Ed.2d 203 (1985).
Thomas v. Foltz, 818 F.2d 476, 480 (6th Cir. 1987).
The record in this case shows that Petitioner was informed on multiple occasions
that he was subject to consecutive sentences. Paragraph one of the Plea Agreement—
which was signed by Petitioner—states that “[t]he Court may elect to run each count
consecutive (back to back).” (Doc. 79). This term was highlighted by the Assistant
United States Attorney during the plea hearing. (Doc. 118, PAGEID# 613). The Court
also advised Petitioner at the plea hearing that the sentence could be run consecutively:
THE COURT: Okay. So it's 2251(a)(1), Production of Child Pornography.
Each of those carries a term of imprisonment of not less than 15 and not
more than 30. Do you understand that, Ken?
THE DEFENDANT: Yes, I do.
THE COURT: Now, here's the deal. Those sentences, depending on what
happens, and we'll talk about the presentence investigation in a minute,
they could be served concurrently, which means they could run at the same
time, or, if it was appropriate, they could be served consecutively, which
means back to back.

9

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 10 of 16 PAGEID #: 1006

So it's a longer term of imprisonment possible than just the 15 to 30. Do you
understand that?
THE DEFENDANT: Yes.
(Doc. 118, PAGEID# 607-608). Therefore, even if his trial counsel failed to inform
Petitioner that he could be sentenced to consecutive sentences, the record illustrates that
Petitioner knew that the sentences could be served consecutively. As such, Petitioner
cannot show on this basis that there is a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would have insisted on going to trial.
Petitioner also argues that had trial counsel properly developed the trial court
record, Petitioner’s motion to suppress would have been granted. Petitioner argues that
counsel should have “presented and argued, with constitutional law and other experts,
the critical nature of a warrant affidavit's inclusion of a dwellings address.” (Doc. 130,
PAGEID #677). As the Sixth Circuit explained, the issue in this case is that the affidavit
failed to provide a connection between the evidence sought and the residence to be
searched. However, the Sixth Circuit concluded that the officer “exercised good faith
and acted in objectively reasonable reliance on the warrant's legality” in conducting the
search. 714 F.3d at 369. The Sixth Circuit explained: (1) “the affidavit showed that the
case involved three victims who had spent time at Rose's home and provided detailed
testimony about the activities that took place therein;” and (2) “the affidavit related that
the affiant was a detective in the Personal Crimes Unit and that he had been conducting
an investigation into the victims’ allegations.” Id. The court concluded that based on
this evidence “it would be entirely reasonable to conclude that either the testimony of the
three victims or the independent investigation by the detective, or both, revealed that
Rose lived at 709 Elberon Ave.”

Id.

Petitioner has not explained how additional
10

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 11 of 16 PAGEID #: 1007

investigation by counsel would have altered the conclusion that it was reasonable to rely
on the testimony that crimes occurred in the defendant's home, or the detective's
independent investigation which revealed that the defendant lived at the residence to be
searched. The Sixth Circuit stated that there was “overwhelming evidence linking Rose
and his residence to a crime and to the evidence sought in the search warrant.”

Id.

Therefore, counsel was not ineffective for failing to conduct additional investigation.
Petitioner also argues that counsel should have presented other law which would
have countered the Sixth Circuit’s conclusion that the officer exercised good faith and
acted in objectively reasonable reliance on the warrant’s legality.

Petitioner cites two

cases, both which are readily distinguishable.
Petitioner first cites United States v. Bautista, No. 5:11-CR-42, 2012 WL 1014995
(W.D. Ky. Mar. 22, 2012). The search warrant affidavit in Bautista merely listed the
address of the premises to be searched and included allegations from an informant that
he had regularly purchased methamphetamine from the defendant at his home. Id. at
*3. The court explained that there was no evidence linking the criminal activity to the
address in the affidavit, and did not state that the defendant lived at that address.
Therefore, the court concluded that the good faith exception did not apply.

Id.

Id.

Petitioner also cites United States v. Rice, 704 F. Supp. 2d 667 (E.D. Ky. 2010).
The district court in Rice concluded that the officer’s reliance on the affidavit was
unreasonable because there was no evidence of why the residence to be searched was
relevant.

Id. at 670. The court explained that an officer “would have to first infer that

the address was the defendant's and then infer that a person involved in illegal elk hunting
would keep evidence in his home.” Id.

11

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 12 of 16 PAGEID #: 1008

However, in this case, as explained above, the Sixth Circuit found that the
evidence linking Petitioner and his residence, and linking his residence to a crime, was
“overwhelming.” The issue of the good faith exception was raised, considered and finally
decided by the Sixth Circuit on direct appeal. Petitioner cannot reargue it here under the
guise of an ineffective assistance of counsel claim.
In his fifth ground for relief, Petitioner argues that appellate counsel was ineffective
for failing to seek en banc review as part of his direct appeal after the Sixth Circuit
erroneously held that United States v. Watson, 498 F.3d 429, 431 (6th Cir. 2007) does
not require a search warrant or search warrant affidavit to include an address.

The Sixth

Circuit relied on Watson as follows:
If an affidavit lacks probable cause, “[t]he Supreme Court has recognized
an exception to the exclusionary rule where ‘the officer conducting the
search acted in objectively reasonable reliance on a warrant issued by a
»
detached and neutral magistrate....
United States v. Watson, 498 F.3d
429,431 (6th Cir. 2007) (quoting Massachusetts v. Sheppard, 468 U.S. 981,
987-88, 104 S.Ct. 3424, 82 L.Ed.2d 737 (1984)). This is known as the
good-faith exception. Id.
jj

714 F.3d 367.
In Watson, the warrant described the residence “in painstaking detail—listing,
among other things, (1) its location; (2) its general size, shape, and orientation; and (3)
the color of its exterior walls and trim, roof, shutters, garage door, and even mailbox.”
Watson, 498 F.3d at 432. The warrant also incorporated other documents: maps of the
area, a tax-assessment printout, and photographs of the residence.
However, the warrant entirely omitted the address.

Id.

Id. at 433.

Despite this omission, the Sixth

Circuit concluded that based on the warrant, the officers reasonably believed that they
had authority to search the residence.

Id.

12

Therefore, any argument by appellate

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 13 of 16 PAGEID #: 1009

counsel that under Watson, the good-faith exception does not apply when the warrant
does not include an address would have been without merit.1
A defendant is entitled to effective assistance of counsel during his first appeal of
right.

Fautenberry v. Mitchell, 515 F.3d 614, 642 (6th Cir. 2008) (citing Evitts v. Lucey,

469 U.S. 387, 396, 105 S.Ct. 830, 83 L.Ed.2d 821 (1985)).

Claims of ineffective

assistance of appellate counsel are governed by Strickland v. Washington, 466 U.S. 668,
104 S.Ct. 2052,80 L.Ed.2d 674 (1984). Hand v. Houk, 871 F.3d 390,410 (6th Cir. 2017).
Appellate counsel’s performance is neither deficient nor prejudicial where counsel fails to
present a legal argument which would have been futile.

See Harris v. United States, 204

F.3d 681,683 (6th Cir. 2000); see also United States v. Hanley, 906 F.2d 1116,1121 (6th
Cir. 1990) (“We reject Hanley's first allegation of ineffective assistance of counsel
because Hanley's counsel may have wisely decided not to pursue suppression motions
that would have likely been futile in view of the government's access to co-defendants'
statements following their guilty pleas.”). Therefore, Petitioner’s appellate counsel was
not ineffective for failing to raise the argument that the Sixth Circuit misapplied Watson.
Petitioner also maintains that appellate counsel was ineffective for failing to raise
the significance of the evidence which he has presented in these Section 2255
proceedings.

Petitioner has been permitted to present his affidavit dated June 13, 2015

1The Court notes that the search warrant affidavit in this case did include and address
and described the place to be searched as follows:
The building does not have the street address: however I have included a printout
from the Hamilton County Auditors identifying the building as 709 Elberon Avenue.
To the right of the front door are four doorbells. Over the doorbell assigned to
apartment number one is the name “Rose”, the last name of the suspect.
(Doc. 44-1).
13

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 14 of 16 PAGEID #: 1010

(Doc. 141-1); and his affidavit dated March 22, 2018, which consists of an annotated copy
of the search warrant affidavit (Doc. 184-1 ).2 The Court notes that the information in
these affidavits consists of information which was a part of the record in this case, along
with legal arguments made by Petitioner.3
The failure of appellate counsel “to raise an issue on appeal is ineffective
assistance only if there is a reasonable probability that inclusion of the issue would have
changed the result of the appeal.”

Howard v. Bouchard, 405 F.3d 459, 485 (6th

Cir.2005) (citing Greer v. Mitchell, 264 F.3d 663 (6th Cir. 2001)).

“A reasonable

probability is a probability sufficient to undermine confidence in the outcome.”

Strickland,

466 U.S. at 694,104 S.Ct. 2052. “The likelihood of a different result must be substantial
not just conceivable.”
L.Ed.2d 624 (2011).

Harrington v. Richter, 562 U.S. 86, 112, 131 S.Ct. 770, 178

Petitioner has not explained in any detail how the information in his

affidavits would have changed the result of the appeal. Moreover, the Supreme Court
has held that appointed counsel has no obligation “to raise every ‘colorable’ claim
suggested by a client” and judges should not “second-guess reasonable professional
judgments.”

Jones v. Barnes, 463 U.S. 745, 754, 103 S.Ct. 3308, 77 L.Ed.2d 987

(1983).
Finally, Petitioner claims that appellate counsel was ineffective for failing to identify
and raise issues of ineffective assistance of trial counsel. However, the Supreme Court
has held that that “failure to raise an ineffective-assistance-of-counsel claim on direct

2These annotations are made by Petitioner and explain which parts of the affidavit he
believes are false. Petitioner also identifies facts which he believes have been omitted and
sets forth legal arguments which Petitioner believes are relevant to that part of the affidavit.
3However, some of the information and the arguments made by Petitioner are related to
his state court proceedings.
14

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 15 of 16 PAGEID #: 1011

appeal does not bar the claim from being brought in a later, appropriate proceeding under
§ 2255.” Massaro v. United States, 538 U.S. 500, 509, 123 S. Ct. 1690, 1696, 155 L.
Ed. 2d 714 (2003).

Therefore, Petitioner’s appellate counsel was not ineffective for

failing to raise ineffective assistance of trial counsel as part of Petitioner’s direct appeal.
III.

CONCLUSION

Pursuant to 28 U.S.C. § 2255(b), the Court determines that the instant motion and
the files and records of this case, in conjunction with review of the files and record
conclusively show that Petitioner is not entitled to relief.

Therefore, a hearing is not

necessary to determine the issues and make the findings of fact and conclusions of law
with respect thereto. Accord Smith v. United States, 348 F.3d 545, 550-51 (6th Cir.
2003). The claims raised are conclusively contradicted by the record and the law of the
Sixth Circuit and the United States Supreme Court.

Based on the foregoing, it is hereby

ORDERED that:
1. Petitioner’s Motion to Expand the Record (Doc. 184) is GRANTED;
2. Petitioner’s Motion to Expand the Record (Doc. 186) is DENIED; •
3. Petitioner’s Motion to Take Judicial Notice. (Doc. 187) is DENIED; 4. Petitioner’s Motion to Alter or Amend Judgment (Doc. 188) is DENIED; ■
5. Petitioner’s Superceding Motion to Alter Judgment (Doc. 189) is DENIED; •
6. Petitioner’s Motion to Vacate under 28 U.S.C. § 2255 (Doc. 125) and Amended
Motion to Vacate under 28 U.S.C. § 2255 (Doc. 190) are DENIED; and .

7. Petitioner’s habeas proceedings, 1:14-cv-00809-MRB, is CLOSED and
TERMINATED from the active docket of this Court.
15

Case: l:09-cr-00047-MRB Doc #: 191 Filed: 09/06/18 Page: 16 of 16 PAGEID #: 1012

IT IS SO ORDERED.
/s/ Michael R. Barrett
Michael R. Barrett
United States District Judge

16

May 15, 2018
Supreme Gourt of the United States
Attn: Case Analyst
Washington, D.C. 20543-0001
RE: Sixth Circuit Mandate Recall (11-4313) Interference by Sixth Circuit Clerk
My submissions to the Sixth Circuit to remedy the plain and reversible errors
of fact and law underlying the mandates contrary position to Supreme Gourt precedent
have been kept (but not filed) without even the return of a notification of such.
The Clerk has recently informed me: "this case remains and will remain closed. Your
submissions have been noted on the docket but there will be no further action." (enc.)
I attempted to address the unanswered questions the court posed in its 12/22/16
order, and even motioned for extension of time. The clerk returned that 1/10/17 motion
and the the 4/6/17 affidavit and motion for counsel, with an inference that an active
(supplemental) motion to recall mandate would have to be filed before appointment of
counsel could be considered. When I refilled a new motion to recall mandate on 7/6/17
I reasonably believed it was pending before the court as it had not been returned nor
was any letter sent by the clerk. Not until May, 2018 did I receive written notice that
all of my submissions since 7/6/17 will never be acted on by the court.
The mandate denudes the protections of the 4th Amendment, and contravenes Supreme
Court precedents which forbid a good-faith exemption where the affidavit was 'so
lacking in indicia of probable cause that official belief in the existence of probable
cause is unreasonable." Mills, 389 F.3d 568, 577-578 (6th Cir. 2004) citing Malley,
475 U.S. 335. The instant case actually netted less probable cause than Mills or Cline,
745 F.Supp. 2D 773, 807 if the Sixth Circuit had been informed the instant affidavit
at issue stated an entirely different street address which objectively a reasonably
well-trained police officer in his position would have known that the Affidavits in
support "failed to establish probable cause and that he should not have applied for
the warrant." Fry v. Robinson, 2018 U.S. Dist. LEXIS 34105 (same Ohio District Court)
citing Malley, 475 U.S. at 345 integrating applicability to Rose, 714 F.3d 362 at *11
[*11] An officer applying for a warrant, however, still must "exercis[e] reasonable
professional judgment" so as to "minimize" the "danger of an unlawful arrest."
Malley, 475 U.S. at 345-46. Review of whether a warrant was supported by
sufficient indicia of probable cause is limited to "the four comers of the
affidavit." United States v. Rose, 714 F.3d 362, 367 (6th Cir. 2013) • • • The
deliberate or reckless emission of facts that are material to a probable cause
determination is unconstitutional. Wesley v. Campbell, 779 F.3d 421, 428-29
(6th Cir. 2015), Sykes v. Anderson, 625 F.3d 294, 305 (6th Cir. 2010)
[*14] ...a reasonably well-trained police officer in his position would have known
that the Affidavits in support "failed to establish probable and that he should
not have applied for the warrant." Malley, 475 U.S. at 345
I do not know how to proceed (Mandamus, Extraordinary Writ, etc.) and my Federal
Public Defender severed any futher assistance, can you please help me?
Pursuant to 28 U.S.C. 1746, I declare (or certify, verify, or state)_under penalty of
perjury that the foregoing is true and correct. Executed on
S -1 ~ Iff___________

RECEIVED
MAY 2 5 2018

Kenneth Rose, 655-843
Warren Correctional Institution
5787 State
Lebanon, OH

R?x.

**cxmicnNG u.s.

supreme court and sixth ciRcurr decisions being contravened by

am gerguit mandate 11-4313

Malley v. Briggs, 475 U.S. 335, 344-45 (1986) applied to similarly situated defendant in 6th Circuit case:
Mills v. City of Barbourville, 389 F.3d 568, 575-578, 2004 U.S. App. LEXIS 23753. at 14 and 21 (6th Cir. 2004)
(at 14) "We reverse and remand because the affidavit (**14) supporting the search warrant for plaintiff's
home was not supported by probable cause and a reasonable officer.. .should have known that there
was not probable cause to conduct the search."
(at 21) "The proper inquiry, therefore, is whether a reasonable competent investigator (**21).. .could
have believed that probable cause existed to search (address in affidavit, in the instant
case "1000 Mian Street"). Because the officers presented absolutely no information in the
affidavit presented to the magistrate indicating that the place to be searched was connected
to (suspect), either through a sworn statement the (victim) had identified the residence as
the place of the (crime - in the instant case: alleged forced rape, ORC 2907.02) or through
independent investigation corroborating that it was the home of (suspect), the affidavit was
"so lacking in indicia of probable cause that official belief in the existence of probable
cause is unreasonable".
Note: The analysis of the good-faith exception in the qualified irammity context similarly applies to the
suppression context presented here. See Mai ley v. Briggs, 475 U.S. 335, 344 (1986)("(W)e hold that
the same standard of objective reasonableness that we applied in the context of a suppression hearing
in Leon...defines the qualified ininunity accorded an officer whose request for a warrant allegedly
caused caused an unconstitutional arrest.)
Groh v. Ramirez, 540 U.S. at 565 n.9 (2004) applies: ("(T)he Fourth Amendment's particularity requirement assures
the subject of the search that a magistrate has duly
authorized the officer to conduct a search of limited scope.
This substantive right is not protected when the officerfails
to take the time to glance at the authorizing document and
detect a glaring defect.. .of Constitutional magnitute.");
see also id at 562 ('It is incumbent on the officer executing
a search warrant to ensure the search is lawfully authorized
and conducted."); George, 975 F.2d at 77 ("Reasonable
reliance does not allow an officer to conduct a search with
complete disregard of the warrant's validity because the
'standard of reasonableness...is an objective one...(one that)
requires officers to have a reasonable knowledge of what the
law prohibits." (quoting Leon, 468 U.S. at 919 n.20))
Groh applies through Hodson, 543 F.3d at 293 as quouted in similarly situated defendant in Cline (6th Cir.):
Cline v. City of Mansfield, 745 F. Supp. 2d 773, affirmed 2012 Fed App. 9131 (6th Cir. 2012) at 807:
(at 807) In short, there is little question that the affidavit in this case was 'so lacking in
probable rause as to render official belief in its existence entirely unreasonable."
McPhearson, 469 F.3d at 522 (citation omitted); see also Hodson, 543 F.3d at 293 ("(A)
reasonably well trained officer in the field, upon looking at this warrant, would have
realized that the search described.. .did not match the probable cause described...")
• • • In this case, by contrast, (**74) it is clear that any reasonable officer who:
(a) read the affidavit, and (b) happened to discover that it referred exclusively to
(("1000 Mian Street - adapted to the instant case)) would know that the affidavit did
not reflect probable cause to search (("709 Elberon Av." - adapted to the instant case)).
Cline at 807 - 808

Case: l:09-cr-00047-MRB Doc #: 190 Fried: 04/12/18 Page: 1 of 1 PAGEID #: 990
SCANNED AT W'Cl and E-Mailed
to USDC OHSD or H/[C
20$t>y_....___________ ;

IN THE UNHID STATES DISIEICr OOURT
SOUTHERN DISIRECr OF OHIO
WESTERN DIVISION

I Nq- of Pgs.
KENNETH ROSE,

i

Movant
v.
UNTIED STATES OF AMERICA

Case No: l:09-cr-O47
l:14-cv-809
MTVANT'S AMENDED 2255 MHTCN

ftovant, Kenneth Rose, hereby respectfully requests to submit this attached amended 2255 Motion,
incorporating by reference prior 2255 motions.
I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true
and correct and that this Motion Under 28 U.S.C. 2255 was submitted for ECF filing on H
.
Executed on
.
The movant asks the Court grant the following relief: Vacate and set aside the judgement,
discharge Defendant, grant Defendant a new trial, resentence Defendant, correct the Defendant's
sentence, grant an evidentiary hearing, or any other favorable relief Movant/Defendant may be
afforded.
Respectfully submitted,
/<

Kenneth Rose, 655-843
Warren Correctional Institution
P.O. Box 120
Lebanon, CH 45036
CERTIFICATE OF SERVICE
I hereby certify that this document and attachments were submitted for ECF filing on ^ '4
which should forward copies to parties of record.

Kenneth Rose, 655-843
Warren Correctional Institution
P.O. Box 120
Lebanon, CH 45036

Case: l:09-cr-00047-MRB Doc #: 190-1 Filed: 04/12/18 Page: 1 of 6 PAGEID #: 991
AMENDED 2255 - HEREBY MXMOMHN5 BIT REFERENCE PRIOR 2255 M0IK3B
I. BACKGROUND (AEDRESSING PRIOR ANSWERS) - OONVICITCN VOID: UNOCNSTTIUITCNAL (1ST/4TH AMEND.) SEARCH WARRANT
Movant, Kenneth Rose, has outlined meritorious argunsnts (Doc. 125, 129, 130, and 149 - all hearby
incorporated by reference), in addition to the related arguments contained herein, despite the Respondent’s
prior opposing position to the contrary. The evidence was obtained in violation of clearly established law.
The detective drafted a 'general' search warrant violating the Movant's 1st and 4th Amendment protections.
The author of the search warrant clearly fashioned his affidavit for search in an intentionally vague
manner to manipulate the inferences he wonted the magistrate to draw in violation of United States v.
Gaines, 2013 U.S. Dist. LEXIS 143853, at 5 (By reporting less that the total story, an affiant can
manipulate the inferences a magistrate will draw. To allow a magistrate to be misled in such a manner could
denude the probable cause requirement of all real meaning). The affiant effectively intended this inference:
'Evidence is believed to have been retained (no substantial basis offered) on a computer (desktop/
laptop?) in suspect's roan/bedroom (parent's tone, friends heme, suspect's home?) that would prove Ml's
(Vi's) allegation that he was forced to have sex against his will "starting" in July, 2008 (prestmably
continuing up to the tine of warrant application?) and since Ml claimed to also observe suspect engage
in sex with M2 and M3 (Third parties, not alleging forced sex) and M2 & M3 claimed to self-masturbate
to undescribed pornography (ubiquitous adult internet pom/inherently illegal?) sometime between July,
2008 and November, 2008 (non-particular), any pornography found (presumably between July, 2008 to ritre
of warrant execution, as any other scope would be prohibitively overbroad) would inherently prove Ml's
forced sex allegation (notwithstanding, of course, lade of 4-comer acknowledgment that M2 and/or M3
corroborated Ml's presence with them, or 4-comer implication by Ml of pornography involvment isn't
averred) in some way the affiant will justify later should plain view contraband be found in process.*
The search warrant was void ab initio. The search warrant affidavit was overbroad, non-particular,
lacked a 'substantial basis' to connect address-actually-searched (709 Elberon Ave) to suspect, location of
forced sex, or location of a computer in room somewhere, and lacked any semblance of probable cause as it
(the 4-comers of the affidavit) explicitly listed "1000 Mian Street" as the location of evidence of forced
rape under O.R.C. 2907.02. This search cannot be made legal by what it turns up, contravening United States
Supreme Court precedent, namely: Byars 273 U.S. 30. Even before 'proper' Franks violations are demonstrated
(Doc. 187, Pgs. 3-5), clearly establish federal law prohibited this kind of rumnaging for ubiquitous adult
pornography, namely: Zinmerman, 277 F.3d 426. The prosecution has 'used in an evidentiary manner' illegally
seized and unlawfully resurrected data otherwise destroyed absent the warrant issued contrary to clearly
established law, and/or the affidavits explicit restriction that "only the contents authorized to be seized
by this warrant will be printed, disclosed, or otherwise used in an evidentiary manner." (Doc. 44, PAGED):
87)^ from a laptop computer that hadn't been powered for at least 2 years prior (2+ years pre-dating scope)
and was located in an entirely different 'room'. Absent prosecutorial misconduct and/or ineffective
assistance of trial and/or appellate counsel, the present 'subjective' good-faith finding would not be
contravening controlling United States Supreme Court precedent mandating an 'objective' good-faith finding,
namely: Malley, 475 U.S. 335, 344-355 (1986) and Groh, 540 U.S. at 565 n.9 ( 2004), see Mills and Cliie
(6th Cir.) respectively {Mills, 2004 U.S. App. LEXIS 23753 at **14 and **21, and Cline, 745 F.Supp. 2d 773,
at 807, affirmed 2012 Fed App. 911 (6th Cir. 2012)) ^ 3130
11 though IV and record expansions.
1

Case: l:09-cr-00047-MRB Doc #: 190-1 Filed: 04/12/18 Page: 2 of 6 PAG El D #: 992
II. DISPUIH) FACIS IN PRCSBCUITCN'S FACTUAL BACKGROUND (Doc. 134, PAGRTD: 692) - REQUIRUG HEARING
Ihe prosecution has continued to engage in prosecutorial misconduct by committing fraud upon the trial
and appellate courts by not correcting critical facts such as: "Contained among those images were
pornographic ptotos of the three.. .previously referenced", erroneously inferring that the warrant yielded
a depiction of Ml (VI - the only truror averred in the warrant's affidavit to have alleged forced sex under
2907.02) as if that would vindicate the warrant as the probable cause finding was reversed in the Sixth
Circuit. Erroneous facts continue at: "Other images depicted all the aformentioned minor males...", again
the prosecution erroneously intended any reviewing court to believe a depiction of Ml (VI) was yielded by
a warrant that lacked probable cause. The graphic descriptions used by the prosecution are clearly intended
to taint the impartial application of clearly established federal law, namely: "Nor is it materiel that the
search was successful in revealing evidence of a violation of a federal statue. A search prosecuted in
violation of the Constitution is not trade legal by what it brings to light...", Byars v. United States, 273
U.S. 28, 1927 U.S. LEXIS 679, at HN2 and HN3, and "We have had frequent occasion to point out that a search
is not to be made legal by what it turns up. In law it is good or bad when it starts and does not change
character from its success”, United States v. M Re, 332 U.S. 581, 1948 U.S. LEXIS 2667, at HN7. Ihe Sixth
Circuit cited to the Byars principle in: United States v. Freeman, 209 F.3d 464, 2000 U.S. App. LEXIS 4512,
^7-^8, Indeed, as the Supreme Court opined long ago, an illegal search cannot be justified be the potent
evidence that it produces." Even if the warrant's affidavit could have justified recovery of computer data
from July, 2008 to November, 2008, there was no substantial basis within the affidavit's 4-corners to
believe evidence of Ml's (VI) allegations of forced sex would exist on a laptop computer that hadn't been
powered since 2006, nor was any search variant explicitly ever seeking evidence depicting minors, see pg. 1,
and Doc. 187. The warrant was clearly overbroad (General Warrant) if interpreted to allow scouring of data
predating July, 2008, and absent any substantial basis in the 4-comers of the affidavit to infer anything
about a laptop in a living roan closet inoperable and not powered for years, it must- be suppressed.
The prosecution's attempts to 'inflame-the-passions' of condemnation of the Defendant - at the expense of
objectively unbiased fair adjudication by the trial and appellate courts, should be stricken and admonished.
The search warrant's good-faith exception would have been reversed, and the evidence suppressed, absent the
the prosecutorial misconduct demonstrated herein and incorporated by reference, therefore the conviction
should be vacated and the case dismissed. To the extent the prosecution effectively blames ineffective
assistance of trial and/or appellate counsel for the good-faith exception being granted in 11-4313, the
trial court should vacate the conviction and dismiss the case, or in the alternative, hold evidentiary
hearings, in the interests of justice, to more fully and fairly adjudicate the claims. In any case, it
is clear that the facts contained within the 2255 motions affirmatively show facts supporting the contention
that the Movant was denied a full and fair opportunity to litigate the claims! demonstrated herein^ and those
hereby incorporated by reference at the trial level and on appeal, and demonstrate a fundamental defect in
the proceedings that inherently resailts in a complete miscarriage of justice as the extraordinary
circunstances demonstrate errors so egregious they amount to a violation of Due Process.

2

Case: l:09-cr-00047-MRB Doc #: 190-1 Filed: 04/12/18 Page: 3 of 6 PAGEID #: 993
Movant will stipulate to the following ’Factual Background’:
Movant/Defendant was brought to the attention of Ms. Christy L. Muncy, Assistant United States
Attorney, in 2009, due to the results of computers seized from 709 Elberon Avenue stemming from
a search warrant affidavit that explicitly requested permission to search only "1000 Mian Street"
The State offered to 'close its case’ and not indict defendant on the results of the seizures in
exchange for a plea of guilty. The State trial judge was aware of the results of the seizures when he
proposed a sentence of 5 years for each minor explicitly named in the search warrant affidavit.
When it became apparent that the State wanted to add a charge involving a fourth minor related to
the results of the seizures, thane was an agreement that the sentence would not increase from that
count that steamed from an 'information' rather than grand jury indictment. However, the court
became aware that Ms. Muncy was anticipating a Federal Sentence of 30 years when Defendant would
be sentenced in Federal Court, so the State trial judge imposed an additional 5 year sentence for
the fourth minor, despite the prior agreement. Tie search warrant sought evidence proving Ml (VI the minor who initiated a complaint alleging the defendant forced him to engage in sex against his
will) was forcefully raped undo: 2907.02. On 11/20/08 Ml effectively refuted the forced sex claim
in tie Grand Jury proceedings when evidence was presented that Ml voluntarily returned in August,
2008, to Defendant’s place (unspecified) to engage in sex - although this information was
intentionally omitted from Decenter, 2008 search warrant affidavits. Although the scope of the
warrant sought evidence from July, 2008 to November, 2008 because the affidavit erroneously implied
sex was recurring up to the time of the warrant's application, data was resurrected from tie deleted
file structure of an inoperable laptop computer foimd in a living room closet at 709 Elberon Ave,
that hadn't been powered since at least 2 years prior (2006), therefore outside the scope of the
warrant. Ms. Muncy expressed her willingness to accept a completely concurrent sentence with the
State (that didn't exceed the State sentenc^ in plea offers. Although the results of the seizures
did not depict Ml or prove his initial allegation of forced sex, Defendant was ultimately sentenced
to 612 months of imprisonment (R. 106, Judgment).
To the extart that the prosecution disputes this proposed 'Factual Background' an evidentiary hearing
should be granted to fairly adjudicate the facts in dispute.

3

Case: l:09-cr-G0047-MRB Doc #: 190-1 Filed: 04/12/18 Page: 4 of 6 PAGEID #: 994

m. STANDARD OF REVIEW OONIFNITQNS (also addressing Prosecution's Answers, namely: Doc. 134)
The contentions raised in the 2255 motions demonstrate extraordinary circunstances exist. The
contentions raised in the 2255 motions demonstrate fundamental defects in the proceedings that
inherently resulted in a complete miscarriage of justice, and the errors were a) egregious that they
amounted to a violation of due process. The errors are of constitutional magnitude and had a
substantial and injurious effect on the proceedings. Additional prima facie evidence hereby incorporated
by reference (Movant’s motions to expand record) denenstrates this also.
In regards to the plea, a plea is not knowingly and intelligently made when no clarification is
made on the record that in the instant case a consecutive sentence would only be possible if the
Sentencing Guidelines reflect an applicable senteicing range up to 'life', otherwise the court would be
prohibited from sentencing in any consecutive manner. It would then seem appropriate that Defendant
was asked if he conferred with defense counsel to determine if the Sentencing Guidelines appeared
to subject the Defendant to a sentencing range that included the word 'life' which would enable the
Court to sentence in a consecutive manner. Defendant would then have had the opportunity to address,
on the record, that defense counsel indicated to Defendant that his review of the Sentencing
Guidelines did not subject the Defendant to a sentencing range including the word 'life'. At which
time the Court may have suggested to defense counsel the parties might stipulate the applicability of
certain sentencing range enhancers before proceeding with the plea. Terra din, 510 F.2d 844, 847 (2d. Cir.)
To the extent that the Court interprets knowingly and intelligently made pleas do not require the
Defendant to be informed of the impact on a sentence becoming eligible for consecutive terms when the
Sentencing Guidelines reflect a sentencing range including the word 'life', then trial counsel was
ineffective for not properly informing Defendant that the Sentencing Guidelines could, in the instant
case, recannend a sentencing range which included the word 'life' (thus enabling consecutive
sentencing) to which the Defendant based his acceptance of the plea on counsel's assurance that
the Guidelines Sentencing range would not include the word 'life'. Obviously, that conversation with
counsel took place off the record and is properly before the court in 2255 proceedings which will
require an evidentiary hearing to place it on the record, as well as tie fact that Defendant would have
considered the prosecutor's alternate plea offer to fewer counts where the Prosecutor demonstrated her
agreeability to a 30 year, fully concurrent with the State, sentence, and her willingness to
negotiate an agreeable plea between parties rather than proceed to trial} demonstrates a willingness to
have considered stipulating against the use of certain Guidelines sentence enhancements, or in the
absence of stipulations an alteration to the plea with fewer counts so that Defendant retains right to
appeal. Any contested facts are appropriately addressed in a 2255 evidentiary hearing. See
Huff y.
United States, 734 F.3d 600, 607 (6th Cir.) in reviewing a 2255 notion in which a factual dispute arises,
the habeas court must told an evidentiary tearing to determine the truth of the petitioner's claims.
4

Case: l:09-cr-00047-MRB Doc #: 190-1 Fifed: 04/12/18 Page: 5 of 6 PAGEfD #: 995
HI. STANDARD OF REVIEW - EXTRAORDINARY CIRCUMSTANCES EXIST
Issues raised and rejected cm direct appeal are reviewable when extraordinary circunstances are
denmstrated, as has been demonstrated herein, namely: Sections I, II, IV, expansions of record, and
subsequent motions filed under Sixth Circuit case 11-4313 since the mandate issued (particularly had the
arguments in those motions been presently within 10 days of issuance of the original opinion in 11-4313).
Fundamental defects in the proceedings inherently resulting in a complete miscarriage of justice,
and/or egregious errors that amount to violations of Due Process have been demonstrated herein, namely:
Sections I, II, IV, expansions of record, and subsequent arguments and motions filed under Sixth Circuit
case 11-4313 sinrp the mandate issued (particularly had the arguments in those motions bean presented
within 10 days of issuance of the original opinion in 11-4313, the failure of which was due to ineffective
assistance of appellate counsel). In light of the arguments and analysis herein, and in sections I, II, IV,
expansions of the record, and the 2255 motions filed to date, the record reflects errors of constitutional
magnitude that had a substantial and injurious effect on the proceedings.
Had trial counsel properly developed the trial court record with the subsequent expansions to the
record, the results of the suppression hearings would have clearly and plainly been favorable to
granting suppression, particularly Docs. 141, 158, 161, 163, 165, 170, 171, etc. and appellate counsel's
failure to raise their prima facie significance was demonstrative of ineffective assistance of appellate
counsel.

5

Case: l:09-cr-00047-MRB Doc #: 190-1 Filed: 04/12/18 Page: 6 of 6 PAGE1D #: 996
IV. MOVANT'S CLAIMS ARE MERITORIOUS AND SHOULD BE GRANIED RFT.TFF
Extraordinary circumstances exist as previously demonstrated herein in sections I through in.
An appellate advocate may deliver deficient performance and prejudice a defendant by omitting a
"dead-bang winner", even though counsel may have presented strong but unsuccessful claims on appeal.
Page v. United States, 884 F.2d 300, 302 (7th Cir. 1989). Although courts have not defined the tern
"dead-hang winner", it can be concluded it is an issue which was obvious from the trial record, see,
e.g. Mktire v. Wainwright, 811 F.2d 1430, 1438 (11th Cir. 1987)(counsel’s failure to raise issue
which "was obvious on the record, and must have leaped out upon even a casaial reading of (the)
transcript" was deficient performance), and one which would have resulted in a reversal on appeal.
By omitting an issue under these circumstances, counsel's performance is objectively unreasonable
because the omitted issue is obvious from the trial record. Additionally, the omission prejudices
the defendant because had counsel raised the issue, the defendant would have obtained a reversal
on appeal. See also Brown v. United States, 167 F.3d 109, 111 (2d Cir. 1999) and Cook, 45 F.3d 388
Appellate counsel omitted the following 'dead-bang-winners' individually, and certainly under a
emulative prejudicial effect analysis: (Similarly situated habeas defendant's granted relief):
a) United States v. Booze, 293 F.3d 516, 520 (D.C. 2002) Trial counsel was ineffective when he
incorrectly estineted likely sentence due to ignorance of applicable law See III.
b) United States v. Soto-Lopez, 475 Fed.Appx. 144, 147 (9th Cir. 2012) Case remanded for
evidentiary hearing to determine whether counsel was ineffective in the negotiation of a
favorable plea offer. See III.
c) Lenover v. United States, 363 Fed.Appx.400, 401 (7th Cir. 2010) Case remanded for evidentiary
hearing on the issue of ineffective assistance of counsel during plea negotiations - See HI.
d) Kerr v. Thurman, 639 F.3d 315, 331 (7th Cir. 2010) Case remanded for evidentiary hearing on
petitioners plea bargain theory See ELI.
e) Julian v. Barley, 495 F.3d 487, 496-97 (7th Cir. 2007) Trial counsel was ineffective during plea
negotiations by misinterpreting maximm sentence defendant could receive
f) United States ex. rel. Hill v. Ternullo, 510 F.2d 844, 847 ( 2d. Cir. 1975) Erroneous legal
advice about an "ultimately knowable" sentence enhancement may constitute ineffective
assistance of counsel See III.
g) Moss v. United States, 323 F.3d 445, 474 (6th Cir. 2003) Failure of defense counsel to provide
professional guidance to a defendant regarding his sentence exposure prior to plea may
constitute deficient perfonranee. See EH.
h) Wofford v. Wainwright, 748 F.2d 1505, 1508 (11th Cir. 1984) A defendant who did not receive
reasonable effective assistance of counsel in deciding to plead guilty cannot be bound by his
plea because a plea is valid rally if made intelligently and voluntarily See EH.
i) McPhearson v. United States, 675 F.3d 553, 563 (6th Cir. 2012) Failure to raise a viable
argument See I, II, HI, IV, Motions for reconsideration and relief from judgment, motions to
expand the record, Motion to take judicial notice
6

/

Case: l:09-cr-00047-MRB Doc #: 184 Filed: 03/22/18 Page: 1 of 1 PAGE1D #: 961
IN THE UNITED STATES DISTRICT COUNT
SOUTHERN DISTRICT OR OHIO
WESTERS DIVISION

SCANNED AT WCi and E-Mailed
to USDC OHSDon 3/7

Jo by

2C

No. of

Pgs- JL

KENNETH ROSE,
Movant
v.
Case Nos l:G9-cr-047
lsl4-cv-809

UNITED STATES OF AMERICA

MOVANT’S MOTION TO EXPAND TOE RECORD

__ Movant, Kenneth Rose, hereby respectfully requests to expand the record to
Include the attached affidavit and facts, per Rule 7 or other rules to clarify
the relevant facts and substantiate the elates outlined in the 3255 Motions and
supporting documents, and pending 2255 revisions.
The proffered materials deal primarily with the basis of ineffective
assistance of counsel, and ineffective assistance of appellant counsel claims
outlined in the 2255 Motions and supporting documents and pending 2255 revisions.
Respectfully submitted.

Kenneth Rose
655-843
Warren Correctional Institution
P.O. Box 120
Lebanon, OH 45036

CERTIFICATE OF SERVICE
I hereby certify that this document and attachments were submitted for ECF
filing on Z-Z’Z-m . which should forward copies to parties of record.

ft***
Kenneth Rose

Case: l:09-cr-00047-MRB Doc #: 184-1 Filed: 03/22/18 Page: 1 of 3 PAGEID #: 962
afr rfay^vtn

Rose, trSS-WS

Incorporating the search verrant affidavit/application at issue, the following is: (an annotated/supplansnted\
Affidavit of Movant, Kenneth Rose, demonstrating the required Franks-hearing-substantial-preLmrixiary-shcwing that
information critical to the finding of probable cause was excluded with the intention to mislead as prohibited
by Mays v. City of feyton, 134 F.3d 809, 816 (6th Cir.). Officers violate clearly established law when they
make material omissions that are "deli berate.. .or show.. .reckless disregard for the truth." Wesley v.
Campbell, 779 F.3d 421, 428-29 (6th Cir.)(quoting Gregory v. City of Louisville, 444 F.3d 725, 758 (6th Cir.)
Case: l:09-cr-00047-MRB Doc #: 44-1 Filed: 05/21/10 Page: 4 of 7 PAGEID #: 85

;'.'0

maji: or ohio

------

$s.
HAMILTON'COUNTY
AFFIDAVIT FOR SEARCH WARRANT
Police Officer Chris Schroder, being nisi duly cautioned and sworn, deposes and says
ihal there are herns within the jurisdiction of the Hamilton County Court of Common
Pleas al: 3000 Mias Street Cincinnati, HAMILTON COUN rv, OHIO. 45202
and that based upon the attached affidavit and the investigation l have conducted, 3 have
probable cause lo believe tha* evidence of criminal activity will be found at the above *fP2
listed places and the following items contained therein are requested to be searched s&Qp],
and/or seized
h

Compulers-defined as central processing units, computer motherboards, hard drives,
floppy drives, removable and re-write able media, tape and digital drives, interna! and
external storage devices, video display units or receiving devices, scanners, printers,
modems, any and all connecting cables and devices, input devices such as **web
cams” vide6 cameras, audio recording devices, disc’s both audio, video and digital,
any memory devices such as smart media, memory' sticks, or any other form of
memory' or device utilised by the computer or it's devices. Any computer software,
programs and source documentation, computer Jogs. (This description constitutes the
definition of a computer system as that term may be used throughout this document.)
And all computer related accessories not specifically mentioned herein, all equipment
having been used in violation of 2907.02, Ohio Revised Cods.

2) Any documentation and/or notations referring to the computer, the contents of the
computer, the use of the computer or any computer software and/or communications.
AH information within the above listed items including but not limited to machine
readable data, all previously erased data, and any personal communications including
bui not limited to e-mail, chat capture, capture files, correspondence stored in
electronic form, and/or correspondence exchanged in electronic form as indicative of
•tse in ehta*ning. mam’.ennnre. and/or evidence of said offense.

'•? Any fruncial itcoin.--, nr teecipts kept as a nan of and‘or indicative of the obtaining,
maintenance, ami/m .;v«denc*i of said offense; financial and licensing information
with respect to .'he compute- software and hardware.

JJ At! of the above records, whether stored on paper, on magnetic media such as tape,
cassette, cartridge, disk, diskette or on memory storage devices such as optical disks,
programmable instruments such as telephones, “electronic address books”, personal
digital assistants, smart media, memory cards, memory sticks, calculators, or any

ROBE 044

;
i

*FF:
*0F:
*141:
#M2;

indicates False Fact
indicates Material Omitted Fact
is the conplainant, Minor 1, alleging forced rape
is a third piarty, Minor 2, mentioned by Ml, M2
not alleging forcible rape nor any sex after May
*M3: is a third party, Minor 3, mentioned by Ml, M3
not alleging forcible rape nor any sex after May

#fpl Mian stXGGt is Q fxcLi.Li.OUS StlGGt nam and

to the extent it may be read as "Main" it is
still a false fact in that Ml (complaintant)
never al leged the forcible rape occurred there,
M2 never stated "his room" was on Main, and
M3 never stated "his bedroom" was on Main.
*FF2 the "above listed places" could not possibly
contain evidence of forcible rape (see FF1)
*0F1 "the investigation I have conducted" infers
Affiant would have informed magistrate that
BMV records indicated suspect has maintained
residency at' 368 Elberon Avenue for over 20
years, save M3's "Price Ave" implication,
and this information would be shared with
the magistrate within the 4-corners of the
affidavit to allcw the magistrate independently
to determine temporal likelihood presently
that relevant evidence is located at the
explicitly cited street address "1000 Mian
Street", notwithstanding the fact that had
"368" been mentioned within the 4-corners it
would still not be a "substantial basis" to
find probable cause to search the address
only appearing on the warrant's face: "709
Elberon Avenue, apartment one"

Case: l:09-cr-00047-MRB Doc #: 184-1 Filed: 03/22/18 Page: 2 of 3 PAGEID #: 963

Case: l:09-cr-00047-MRB Doc #: 44-1 Filed: 05/21/10 Page: 5 of 7 PAGEID #: 86

1
•:

oiu*‘ slofsi^c 'jKruii*. vjjffueif* wnh indicia of use. ownership, possession, or commi oi
such records.
And that said items are concealed m violation of jaw, to wi:: 2907.02, Ohio Revised ^FF3 *
Code.

Such belief is supported by the following facts and probable cause. The Affiant is a
Detective assigned to the Personal Crimes Unit which specializes in sexually related
investigations involving minors. The Affiant has training and experience in
investigations involving the pandering of sexually oriented matter involving minors. The
Affiant received a report from P.O. Day (District Three / P8S0) reporting that Kenneth
Rose (while, male, 12/30/71) was engaged in sexual conduct with several minors. The^FF4
Affiant began an investigation into the same.

^FF3

itans are concealed in violation of lav/1 is false,
evidence that ubiquitous nan-contraband adult pom
had been accessed within the warrant's range/scope
(July, 2008 to November, 2008) could not be evidence
sex acts resulted from pom viewing as it is just
as likely any pom was viewed alone by suspect,
notwithstanding the fact Ml neve: inplicated pom

*FF4 "several minors" is false, P.0. Day's report stated
a minor (Ml) alleged sexual conduct (see quiet
On 1l/04.'08 Cecilia Freihofer (Mayerson Center) interviewed
white, male,
correction in equipment search affidavit PAGEJD?119)
<55).
*M1 disclosed that starting in July 2008 Mr. Rose forced him to engage in*FF5
sexual conduct against his will.
also observed Mr. Rose and
(white, male,
(white. male,
'94). am*M3
94) engaged in sexual
conduct with Mr Rose.*0F2, *0F3, *(¥4, *0F5
confirmed that he and .
On I I/IO.'OS the Affiant interviewed
4^3 both had a sexual relationship with Mr. Rose. The sexual relationship *'*■0
involved masturbation, oral, and anal sex. Mr. Rose would show the victim’s
pornographic images on his computer located in his room and would watch the victim's
and would masturharc himself and the victim's masturbated
On I {•')!• 03 the Affiant interviewed Jfyj}
confirmed that he and Mr.
4b 3lso confirmed the ^Hjtf
j$^2 both tod a *e*ual relationship with Mr. Rose,
relationship included masturbation, oral, and anal sex.
also confirmed that Mr.
Rose showed him pornographic movies on his computer which is located in his bedroom.JK¥8

*0F9

*FF5 "starting" in July is false, Ml alleged forced sex
in July, notwithstanding the 11/20/18 grand jury
testimony that near-forced sex acts ended in August,
2008, Affiant intended to mislead magistrate to
believe sex acts were ongoing to time of warrant
*0F2 Both M2 and'M3 denied misconduct to first Mayerson
interviewer, Affiant persisted, Magistrate would
have liked to be presented with all the facts
*CF3 Neither M2 nor M3 placed Ml with them and suspect

! am requesting to remove from the premises, any and ail computers and computer related
media for an examination to be conducted at the Hamilton County Sheriff's Office
fVu..puie« Fi/icnsu. Ij&buiaiorv based on the following:
I. \n order to proic't the elfe«vcsc»:m nature and (he originality uf the dsla
the examination should be conducted in a controlled environment
specifically designed for data recovery utilizing available methods and
equipment.
2. Computer Data is stored in a variety of manners and methods depending
on software applications as well as operating systems in use by the
subject. Data storage on a computer can be voluminous in nature arid a
complete and thorough search often requires days and even weeks.

*0F4 Both M2 and M3 denied any sex acts occurred within
warrant's scope (July, 2008 to November, 2008)
*0F5 Ml never implicated pornography in accusation,
Affiant merely "bootstraped" M2 and M3 statements
tJat they self-masterbated to pom in order to
nrislaad magistrate that M2/M3 observations were Ml's
observations— to obtain a warrant to nimage for
contraband as prohibited by Zimmerman 277 F.3d 426,
notwithstanding lack of address/where Ml's claims
purportedly observed or where forced sex occurred

ROSE 045

*0F6 "had a sexual relationship".. .that ended May, 2006
*QF7 "had a sexual relationship" • • » that ended Dec., 2007
*0F8 M3 stated "his bedroom" was on "Price Ave"
*0F9 M3 rlaimpri website "redtube" (ubiquitous adult pom)
therefore no probable cause to believe retained, nor
relevant evidence per Ziimerman 277 F.3d 426, and
Hodson, 543 F.3d 286, although mentioning "redtube"
nay necessarily ISMt Affiant's intended rumaging

Case: l:09-cr-00047-MRB Doc #: 184-1 Filed: 03/22/18 Page: 3 of 3

Case: l:09-cr-0004?-MRB Doc #: 44-1 Filed: 05/21/10 Page: 6 of 7 PAGEID #: 87

1

3. Computers can be ‘ rigged’' to destroy evidence and eradicate the contents
of the hard drive. Examination of die suspect computer within the
controlled confines of die Computer Forensic* Laboratory significantly
reduces the risk of losing data.
The storage medium, computer hard drive, removable media or other such storage

In executing this warrant. I believe the interests of the Electronic Communication Privacy
Act IS U.S.C., the Ohio Revised Code Section 2933.51, and the Privacy Protection Act
42 US.C. 2000aa may be affected.
Therefore I ask the court order these items be held for not less than two business days
prior to examination to permit possible aggrieved persons as yet unknown to file
Challenges with (his court based on Electronic Communications Privacy Act 13
US.C 2703 or the Privacy Protection Act 42 US.C. 2000aa or 2953.51 et sequitur of
the Ohio Revised Code. If there are no objections filed within this allotted period Ihe
examination of the material covered by this order shall proceed.
The analysis of the computer used by Kennetb Rose is expected to yield;
1. Pornographic images.

*FF7, *0F10

As soon as reasonably possible, the seized items will be reinmcd to the party from whom
they -vve-e seized after the approval of the court.
Affiant has reasonable and probable cause to believe ihat grounds exist for the issuance
of a Search Warrant based on the aforementioned facts and circumstances 3nd that the
property be seized, or any pact thereof and brought before any euurt and/or retained
subject to order of said court.
Affiant further says there is r.cl :hc urgent necessity that the search be conducted in the
nidiilimc
^
^
S.vitc;t and oibs-'ribed before me and hied m this Court this
UJ0K

o!

.'"U'U.’'.V'V

Affiant

POSE 046

in that there is no temporal limitation, nor
is there any particular distinguidung
i-harart-pr-i c«i"i r. given to distinguish 1st AtnereJiient
protected (non-contraband alleged) pom which
may have been viewed (presumably between July and
November, 2008) solely by suspect and that which
my allegedly have been observed by M2/M3 with
suspect present, which, would still not be
evidence of Ml alleged rape per *FF1 to *FF5 and
*0F1 to *0F9
*FF7: "pornographic images" is overbroad and prohibited
as it permits rumaging for any pom unbound by
any ten?»ial limitations whatsoever.
*0F10 "pornographic images/' to the extort any reading
could infer images 'observed* by Ml, there is
no substantial-basis within the 4-comers, and
to the pyrent any reading could infer images
'observed* by M2 or M3, there is also no
substantial-basis within the 4-comers to believe
those observations led to any sex acts per
*FF1 to *FF5 and *0F1 to *0F9

these falsities and material cmissicns were kikwn to
. THE AFFIANT AT THE TIME OF APPLICATION FOR WARRANT
save Mi's partial recantation at the 11/20/08
Grand Jury hearing (see *FF5) although the fact
that the Affiant never corrected the later equipment
search warrant applications taxis to prove intent
in the Franks context also. The Affiant's own notes
(Rose_001 to RoseJQxx) demonstrate the omissions
were known at the time of the warrant's application

Pursuant to 28 U.S.C. 1746, I declare (or certify, verify, or state) ureter penalty of perj^ ti)at ^ foregoing
is true and correct* Executed on
Ae+t**

